<html>
<title> - PREPARING FOR THE WORKFORCE TRANSITION AT KENNEDY SPACE CENTER</title>
<body><pre>[Senate Hearing 110-1188]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1188

 
     PREPARING FOR THE WORKFORCE TRANSITION AT KENNEDY SPACE CENTER

=======================================================================

                             FIELD HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
77-459                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BYRON L. DORGAN, North Dakota        ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 2008....................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Berridge, Randy, President, Florida High Tech Corridor Council...    35
    Prepared statement...........................................    36
Griffin, Hon. Michael D., Administrator, National Aeronautics and 
  Space Administration; accompanied by William H. Gerstenmaier, 
  Associate Administrator, Space Operations Mission Directorate, 
  NASA; and Doug Cooke, Associate Administrator, Exploration 
  Systems Mission Directorate, NASA..............................     5
    Prepared statement...........................................     7
Kohler, Steve, President, Space Florida..........................    38
    Prepared statement...........................................    39
Martinez, Hon. Mel, U.S. Senator from Florida....................     3
Rice, Lisa, President, Brevard Workforce Development Board, Inc..    32
    Prepared statement...........................................    34
Weatherman, Lynda L., President and CEO, Economic Development 
  Commission of Florida's Space Coast............................    28
    Prepared statement...........................................    30

                                Appendix

Bergman, Alan, Republican Candidate, U.S. House of 
  Representatives, Florida 15th District, prepared statement.....    49
Response to written questions submitted by Hon. Mary L. Landrieu 
  to Hon. Michael D. Griffin.....................................    50


     PREPARING FOR THE WORKFORCE TRANSITION AT KENNEDY SPACE CENTER

                              ----------                              


                         MONDAY, JUNE 23, 2008

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                Cape Canaveral, FL.
    The Subcommittee met, pursuant to notice, at 9 a.m. in 
Commission Room, Cape Canaveral Port Authority Maritime Center, 
445 Challenger Road, Cape Canaveral, Florida, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. The meeting of the Subcommittee on Space, 
Aeronautics, and Related Sciences, of Senate Commerce Committee 
will come to order. I want to thank all of you for coming. I 
want to thank those thousand people outside that came to lend 
their support to the continuation of America's space program. I 
want to thank Joe Metheny, the Chairman of Port Canaveral, and 
the members of the Port Authority. We have several elected 
officials here, and I have a list that I've been given, so I'm 
going to recognize those on the list. If you're not on the 
list, then it's because somebody didn't give me that name.
    In addition to the Port Commission, Brevard County 
Commissioners Truman G. Scarborough, Jr., the Chairman, Chuck 
Nelson, Jackie Colon, Mary Bolin, and Helen Volt.
    Members of the State legislature delegation; Senator 
Haridopolos, the Chairman of the Delegation, Representative 
Altman, Representative Sansom, Representative Poppel, and many 
other officials who have come from all around, because of the 
enormity of concern that this community has with the economic 
devastation that has occurred in the past due to layoffs in the 
aftermath of the Apollo program and their potential to occur in 
the future. This is one of the reasons of having this hearing 
here today.
    I have offered to have this hearing, as well, in New 
Orleans, in the Michoud National facility, which is the other 
facility which is projected to receive a huge reduction, 
concurrent to their existing workforce. We are just trying to 
work out the details with the two Senators from Louisiana for 
that.
    In the projections, the Johnson Space Center in Houston, is 
also slated for some substantial cuts, but those come later on 
in the planning process.
    It's the Kennedy Space Center where the projected figures 
released by NASA, could be as much as 6,400, on the high side, 
or about 5,300 on the low side. That is what we have to address 
today.
    I am delighted that Senator Martinez is here, my colleague 
in the Senate. The Senator does not sit on the Commerce 
Committee or on our Space Subcommittee, but he and I share 
other committees, including the Senate Armed Services, and 
obviously he has an interest in the subject matter today.
    I need you all to understand that the way we run a Senate 
hearing is different from how we would normally conduct a Town 
Hall meeting. There is formal testimony, we have a court 
reporter that is recording the proceedings, and there will be 
formal questions asked of the two panels that we have. What we 
are trying to do today is to get a better understanding of the 
workforce challenges that we're going to be facing, and how we 
identify solutions to those challenges. I know we're going to 
look today at the Kennedy Center. These cuts are going 
throughout, and it's an enormous time of not only unrest, and 
uncertainty, for folks because of their livelihood and their 
jobs, but it's a very important transition on our ability to 
have access to space.
    Naturally, the fact that we're going to be laying off 
people here so that we can hire Russians to build Soviet 
spacecraft, so the U.S. Government can spend hundreds of 
millions of dollars buying rides to the International Space 
Station, a $100 billion investment, $75 billion of which is the 
United States investment, is of concern to people.
    But it is what it is. We've been trying, in the Senate, and 
I can name you a bunch of other Senators, Senator Mikulski, 
Senator Shelby, Senator Landrieu, so, you see, it's bipartisan, 
Senator Hutchison from Texas, to get an additional billion 
dollars into last year's NASA budget, only to have the White 
House Budget Office say, ``Nyet.''
    [Laughter.]
    Senator Nelson. And I want you to know I don't blame these 
folks here. I want you to know that my personal opinion is, Dr. 
Griffin is doing a very good job under a very difficult 
circumstance.
    First of all, he's a rocket scientist. He knows something 
about space. And that's important. And two, he has a sense of 
humility which, I think, is important in a leader, because he 
brings the team approach. And if ever there has been a team 
approach, it's the American space program. I mean, just look at 
the miracles that we have pulled off in the past. And I say we, 
because it's collectively we as the space team.
    You know, I had one of the greatest times I ever had, 
having Gene Kranz come in. And I mean, I just didn't want to 
let him go, just asked him question after question. As the 
mission manager of Apollo 13 he's the one that coined that 
famous phrase, ``Failure is not an option.'' They basically 
brought back three astronauts that we would have never seen 
again, and they brought them home safely.
    That's the kind of can-do spirit and teamwork that is so 
much of a hallmark of NASA. And that's what we don't want to 
lose. And yet, people, to use a Southern expression, get down 
in the mouth, when you see potentially huge layoffs.
    Now, we've tried, this bipartisan group that I just named, 
have been trying to get extra money into NASA. It was cut out 
from last year's budget, we tried again this year, but we're 
not having success. Because it's going to be nixed, at the end 
of the day, by the White House Budget Office.
    So, again I get to the point that in America you change 
policy by ballots, not bullets. And you have an opportunity now 
in an election, of changing governmental policy with regard to 
America's space program.
    The problem is, that by the time the new Administration 
gets into place, an awful lot of time has been expended, and a 
lot of decisions that will have already been made that would be 
irreversible. And we're going to get into some of that.
    So, Dr. Griffin, we welcome you, and I want you to know how 
much I appreciate you coming down here. This is not a session 
to beat you up, or Bill, or Mr. Cook. This is a session to 
learn, and to learn together. Most of you who are in here, 
haven't seen the visuals, of 1,000 people out there, all with 
handmade signs, that are concerned, not only about their jobs, 
but about the future of our space program, and how we will have 
human access to space.
    We're concerned about losing the skills, the knowledge, the 
corporate memory, of all of these contracted partners. We 
learned a lot of lessons, when we stepped down after Apollo. 
Huge layoffs, a lot of lost corporate memory that took us a 
long time to work our way back to.
    Now, before I turn it over to Senator Martinez, again, this 
is an official Senate hearing. This will become a part of the 
official Senate record, and I want to recognize my colleague, 
Senator Martinez.

                STATEMENT OF HON. MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very, very much. 
I'm delighted to be here today and join in this Commerce 
Committee hearing. And as Senator Nelson said, I'm not a member 
of the Committee, but I'm delighted to have a chance to 
participate at his invitation, and thank him for that, very, 
very much.
    The fact is that this is a problem which touches all of us 
who love Central Florida, who've grown up here, and who 
understand the fabric of this very, very wonderful space 
community.
    I want to thank the elected officials who are here, the 
County Commissioners, other elected officials, and I appreciate 
their interest, as well. Also, our host--the Port Authority--I 
want to thank you for the great job that you do, bringing 
commerce and jobs to this community.
    And let me thank the panel, and then the second panel, as 
well, for being a part of this important day, here.
    You know, NASA, the space program has been to Central 
Florida, as part of what we are, as part of the fabric of this 
area. The fact is that, the jobs that are spun off--not only 
the ones that are directly related to NASA activities, but 
those that relate to the other activities that are generated, 
because of what NASA has valued as important to this and 
important to the State of Florida. And now we're facing a 
situation where this family, this tremendous team of people 
that have come together to put us into space, in good times and 
in bad, who have known how to bring this program from the 
brink, on a couple of occasions after tragedy has struck, to 
put it back together, to put it back in flight, to keep it on 
schedule, and to do the things that are so remarkable.
    I was so pleased to see the Japanese module get up into 
space. I remember seeing it here, stored and waiting for its 
turn, and delays and problems and challenges. This workforce 
has met them all. This is the best and the brightest and the 
most accomplished group of people you could have anywhere in 
the world, and it is a national treasure.
    And it's a national treasure we cannot afford to lose. That 
we can not afford to just put out to pasture because of the 
inconvenience of time.
    I'm concerned about two things. I'm concerned about the 
industry in this region, that employs more than 64,000 people 
in Florida. I'm concerned about the 1,034 separate contracts 
we've valued at more than $875 million--all of the things that, 
together, make this the economic engine that it is, but I'm 
also concerned for our national security.
    I'm concerned about the United States losing the ability to 
put a human in space, and depending on the Russians to do this 
for us.
    Now, you know, I love the fact that we get along with the 
Russians, and that we are in partnership and that we're doing 
things together. And this Space Station is called the 
International Space Station. So, I'm not going to go on longer 
about what that implies, but the truth of the matter is that we 
don't always know where Russia's leadership is on any given 
day. The fact of the matter is that we might cooperate very 
well in some things, and then from time to time we wonder about 
whether our goals are the same around the world, or not.
    You know, they are not a democracy like we're a democracy, 
they have a little different system of government. And the fact 
of the matter is that I would hope--and I'm counting on the 
fact that we'll have the kind of cooperation we need--we need 
to be careful how we say this, but at the same time, it does 
seem to me that for us to be the preeminent nation in space--
which we have been, ever since the workforce here at NASA won 
the race to the Moon--and that wasn't won just by wishing it. 
It was won by hard work, it was won by teamwork, it was won by 
skill, but it was also won by a national commitment by our 
Congress and the White House--it takes all of us working 
together to make that happen. And that is what I envision for 
the future of the space program, it's what I envision for the 
future of the Space Coast, and what I'd like to see occur.
    Not only, by the way, with governmental-oriented programs, 
but branching out into this vast new world of public/private 
partnerships, of looking for ways that we can expand the 
horizons of space to, not only the governmental projects, but 
also to the private sector, so that we can see the fullness of 
space exploration--just like this port doesn't just depend on 
the Navy presence to function--it's a part of it, and the Coast 
Guard coming out of here--the fact of the matter is that it's 
our private sector that has made this port flourish, likewise, 
St. Petersburg, Florida is ending on the ultimate destination, 
as ultimate possibility when it becomes a port, not only for 
space launch by government, but equally for space launch by the 
private sector.
    We are falling behind as other nations in the world are 
taking a lead in the private exploration of space--we have got 
to play catch-up on that. And the thing we don't need to do is 
to lose this tremendous workforce, to put people out of work, 
give them their pink slip, while at the same time, we're 
generating jobs in Russia to accomplish the same mission. It's 
short-sighted, it makes no sense, we need to reverse it, we're 
delighted for the people who came out today to show their 
support for the Space Coast, for their jobs, and we're also 
pleased to welcome a panel--I really appreciate Dr. Griffin 
being here, and the other members of the panel we'll be hearing 
from.
    So, thank you very much for coming today.
    Mr. Chairman, thank you very much for calling this hearing. 
It is timely, it is important, and I appreciate the opportunity 
to be with you.
    Thank you.
    Senator Nelson. He is going to remain for the second panel, 
to hear from the Brevard County Economic Development Commission 
of Florida's Space Coast, and the Brevard Workforce Development 
Board. What we're trying to do, is to figure out how we can 
mitigate the job losses.
    Dr. Griffin, you know my personal appreciation and 
affection for you. We have the Administrator of NASA, we have 
his Associate Administrator for Space Operations, Bill 
Gerstenmaier, and we have the Deputy Associate Administrator 
for Exploration System, Doug Cooke.
    Dr. Griffin?

      STATEMENT OF HON. MICHAEL D. GRIFFIN, ADMINISTRATOR,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION;

            ACCOMPANIED BY WILLIAM H. GERSTENMAIER,

       ASSOCIATE ADMINISTRATOR, SPACE OPERATIONS MISSION

          DIRECTORATE, NASA; AND DOUG COOKE, ASSOCIATE

  ADMINISTRATOR, EXPLORATION SYSTEMS MISSION DIRECTORATE, NASA

    Dr. Griffin. Thank you, Senator Nelson, Senator Martinez. 
It's a pleasure to be here, and especially with my colleagues--
if you've got Doug Cooke and Bill Gerstenmaier here, you've got 
the best we have at NASA.
    Thanks for inviting us to discuss the greatest challenge we 
have--flying the Space Shuttle safely to complete the 
International Space Station, then retiring it in 2010 and 
bringing new Constellation systems online, while remaining 
within our budgetary resources.
    It is a difficult time. It is important to remind ourselves 
why it is also necessary.
    Admiral Gehman's observation in the wake of the Columbia 
accident holds as true today as it did then, quoting, ``because 
of the risk inherent in the original design of the Shuttle, 
because that design was based, in many aspects, on now obsolete 
technologies, and because the Shuttle is now an aging system, 
but still developmental in character, it is in the Nation's 
interest to replace the Shuttle as soon as possible as the 
primary means for transporting humans to and from Earth 
orbit.''
    We must not forget the, or the many other hard lessons of 
that tragedy. We've made great progress in 5 years. With 
enormous difficulty, we returned the Shuttle to flight, and 
we're flying well. We're successfully assembling the Space 
Station. We must maintain this sense of tenacity and purpose in 
the conduct of the remaining Shuttle flights. We must not allow 
our resolute sense of purpose--so fresh after the accident--to 
fade with time. We must avoid distractions.
    Now, above all else, we need clear communications. Many 
stories were published the spring following our initial 
workforce transition report to Congress. Preliminary estimates 
of 6,400 job losses at KSC were reported out of context, 
without the qualifying information that we offered about the 
many contracts yet to be awarded, or the funds budgeted for 
future work at KSC.
    As I offered in earlier testimony, I continue to believe 
that we are facing an actual reduction of three to four 
thousand workers at KSC. We're working every day to reduce even 
less, but there's no simple solution within the resources 
provided. There is no silver bullet.
    Now most of those who work in the space business do so for 
reasons beyond money, but still they have families to support. 
And to that end, we've identified retention incentives for 
certain critically skilled Space Shuttle operations personnel.
    We will issue a Request for Proposals early next year for 
ground operations processing in KSC. After this fall's Hubble 
Servicing Mission, we will begin mods to Pad 39B to prepare for 
a series of Ares I flight tests, beginning in 2009. And KSC 
will be the lead center for the disposition of Shuttle assets, 
after we retire that system.
    Because the Orion and Ares-I systems are much simpler and 
safer than the Space Shuttle, we will not need nearly as many 
people for KSC launch operations. Thus, our hope is that many 
engineers and technicians will transition to the assembly and 
integration of the Ares V heavy lifter, and the Altair Moon 
lander.
    We're taking steps to work with Federal, State and local 
agencies on necessary retraining. But I must be perfectly 
clear--the single pacing item for maintaining a cohesive 
workforce while bringing new systems online is the funding 
provided by the Congress each year, and the budget projected 
for the agency over the next several years.
    Our plain contract awards and our pace of work, are 
contingent upon programmatic and funding stability.
    So, while I sincerely thank both of you for your support 
for NASA over the years, it remains true that the actual budget 
received for these systems has eroded significantly, compared 
to that which we were promised 5 years ago.
    Again, Columbia Accident Investigation Board offers a 
crucial perspective, ``This approach can only be successful if 
it is sustained over the decade, if by the time the decision to 
develop a new vehicle is made, there is a clear idea of how the 
new transportation system fits into the Nation's overall plans 
for space, and if the U.S. Government is willing at the time a 
deployment development decision is made, to commit the 
substantial resources required to implement it.''
    Thus, I cannot guarantee that the Orion crew vehicle will 
be available sooner than 2015, although we will certainly try. 
Nor can we afford to start an additional procurement for 
commercial crew transport development within our existing 
exploration systems budget.
    With the $500 million allocated already to the COTS 
program, our first priority is to develop an affordable, 
commercial cargo capability for our assets logistics.
    So, the United States will continue to be reliant upon the 
Russian Soyuz system for ISS crew transport and crew rescue, 
something I find to be unseemly in the extreme. However, I 
can't find a way to avoid it.
    While I do not relish the idea of Senator Nelson and 
Senator Martinez--as you've said--of American taxpayers paying 
Russian engineers, I'm nonetheless glad that the Russians are 
our partners on Space Station, because without them, the 
International Space Station would be in jeopardy.
    We'll need the help of Congress--specifically, the Foreign 
Relations Committee--to allow NASA to continue to make such 
purchases from Russia, after 2011. We need that help this fall, 
in order to have adequate time to negotiate contracts for 
production.
    Finally, Chairman Nelson, Senator Martinez, I thank you for 
your leadership and support for NASA. Our budget--less than 
six-tenths of a percent of the Federal budget, about 15 cents a 
day for the average person--leverages a much broader range of 
American leadership around the world than its mere size would 
lead many to believe. To preserve that leadership, we must stay 
the course, we must remain focused upon the challenges ahead. 
Thank you.
    [The prepared statement of Dr. Griffin follows:]

     Prepared Statement of Hon. Michael D. Griffin, Administrator, 
             National Aeronautics and Space Administration

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the transition of NASA's 
workforce at Kennedy Space Center (KSC) as the Space Shuttle Program 
approaches retirement at the end of FY 2010 and NASA embarks on 
returning Americans to the Moon and opening up the way to other 
destinations in our solar system with the new Constellation Program. 
The transition from Space Shuttle to Constellation over the next few 
years provides a rare opportunity to reinvent NASA and reinvigorate the 
Nation's space exploration capabilities. NASA is executing the first 
major change in United States civil space policy in 35 years with 
bipartisan Congressional support of the NASA Authorization Act of 2005 
(Pub. L. 109-155). I believe that this Act remains the finest policy 
framework for United States civil space activities that I have seen in 
forty years, and I thank this Subcommittee for its leadership role in 
crafting this legislation.
    NASA's budget is sufficient to support a broad variety of excellent 
space programs, but it cannot support all of the potential programs all 
of our stakeholders would wish for us to execute. Balanced choices must 
be made, but they cannot continually be remade and revisited if there 
is to be steady progress toward our common, defined objectives. As the 
Columbia Accident Investigation Board noted, and as stakeholders 
acknowledged in ensuing policy debates, it would have been far worse to 
continue with the prior lack of strategic direction for human 
spaceflight, to continue dithering and debating and inevitably widening 
the gap between Shuttle retirement and the availability of new systems.
    There have been suggestions that NASA extend Space Shuttle 
operations beyond FY 2010, but this would have serious budgetary and 
schedule repercussions for the Constellation program. The cost of 
continuing to support Shuttle operations beyond 2010 would be about 
$2.7 to $4.0B per year. The substantial funding for such an approach 
would come out of the Constellation Program, disrupting its schedule 
and delaying the initial operational capability of the Orion Crew 
Exploration Vehicle. In addition, the Constellation architecture is 
designed to take advantage of Space Shuttle infrastructure, production 
capabilities, and workforce once they are no longer needed for flying 
the Shuttle. If the Shuttle were kept flying past its planned 
retirement date, these capabilities could not be released for 
Constellation's modification and use. It will also be extremely 
difficult to keep the Shuttle workforce engaged if Shuttle fly-out is 
extended. Ending Shuttle operations on a planned date known well in 
advance is much easier for the workforce and planning than having a 
floating end date. Keeping the Shuttle system operational past 
September 30, 2010, would only compound the problem of getting 
Constellation into service, exacerbate the gap in NASA human space 
launch capabilities, and delay America's return to the Moon. Not moving 
forward or delaying exploration capabilities would be more deleterious 
to the KSC workforce than the current plans. The KSC community will 
benefit directly from the lunar activities.
    NASA's focus is on safely flying the Space Shuttle to complete 
assembly of the International Space Station (ISS) and honor our 
commitments to our international partners prior to retiring the Shuttle 
in 2010, while bringing the new Constellation systems online by 2015 or 
sooner. Through this period, NASA's greatest asset will continue to be 
its people--the thousands of individuals across the country in both 
government and industry who conceive, design, build, operate, and 
manage an ambitious program of space exploration on behalf of the 
Nation. Our greatest challenge over the next several years will be 
managing this extremely talented, experienced, and geographically 
dispersed workforce as we transition from operating the Space Shuttle 
to utilizing the ISS as a National Laboratory, and expanding our reach 
to the Moon, Mars, and beyond. We must work as carefully as possible to 
preserve the engineering and technical skills we need to carry out 
these efforts and minimize impacts to our workforce, both at KSC and at 
other Agency and contractor facilities across the Nation. These are our 
people. We need them to carry out our mission, and we care for their 
well being.

Transition Challenge and Response
    NASA remains committed to the concept of ``ten healthy Centers,'' 
and still plans to spend generally the same amount on human spaceflight 
labor nationwide, but our workforce will need to transition from 
primarily operations to development work. NASA does not yet have all 
the answers for carrying out this complex transition safely and 
effectively; however, we have been actively dealing with these issues 
for the past several years and working on them each and every day. Our 
best tool to retain employees is to provide meaningful and challenging 
work. We are doing this now through the challenging and exciting ISS 
assembly missions. Looking toward the future, we are working hard to 
give people an opportunity to transition the skills learned flying the 
Shuttle to the design and operation of the next generation of vehicles, 
through work sharing, retraining, job rotations, and other mechanisms.
    Today, a large portion of the Agency's skilled civil servant and 
contractor workforce is focused on the safety of ongoing mission 
operations. Much of the experience and expertise within this workforce 
is required for the Constellation program to succeed. However, the 
effects of the transition will not be the same for everyone. While 
approximately 80 percent or more of NASA's budget will continue to pay 
for the purchase of contractor products, goods, and services, the 
nature of the work being done will change. NASA's human spaceflight 
workforce will shift from a focus primarily on operating spacecraft to 
a new recurring cycle of spacecraft development and operations. NASA 
recognizes and values the dedication of its Space Shuttle workforce and 
will leverage this resource, where feasible, by engaging those men and 
women in the challenging future work that capitalizes on their unique 
skills and abilities to the maximum extent practical.
    We will keep the Congress informed as we know more, award more 
contracts, or assign new roles and responsibilities to the NASA Centers 
most affected by the retirement of the Space Shuttle, such as KSC and 
the Michoud Assembly Facility (MAF) in Louisiana. The entire NASA 
management team takes the displacement of lives and skills very 
seriously as we wind down the Shuttle program. We will ensure that 
critical skills are retained to carry out the exciting missions before 
us. We are already ensuring that the lessons learned by the people 
operating NASA's complex systems will be captured by allowing these 
people to work on the new Constellation systems. As one example of this 
commitment, the personnel supporting Shuttle launch will help to launch 
the first test flight of Ares (Ares I-X), scheduled for next year.

NASA Opportunities at KSC
    KSC has always played a vital role in human and robotic space 
exploration, and will continue to do so, for both NASA and the emerging 
commercial space sector. With the planned retirement of the Space 
Shuttle following flyout of the current flight manifest by September 
30, 2010, and planned initial operational capability of the new Ares I 
Crew Launch and Orion Crew Exploration Vehicles in the Constellation 
Program in 2015, this four-and-a-half-year gap in NASA human space 
launch capability will be anything but quiet at KSC. During this 
period, the flurry of activity at KSC will include: lunar requirements 
development; facilities, operations, and vehicle planning; new 
construction and extensive modifications to existing infrastructure; 
robust systems testing and evaluation; operations and launch procedures 
and checklist development; extensive training; large scale systems 
processing and integration; and, vigorous production--all of which will 
engage our skilled workforce. In addition, important transition and 
retirement work associated with Shuttle equipment and facilities will 
contribute to the continuity of employment between fly-out of the 
Shuttle and the initial flight of Orion.
    It is important to recognize that in the near-term future, there 
will be fewer jobs at KSC. One example of how we have mitigated this is 
with Orion assembly at the Operations and Checkout building at the 
Center. In addition, we have assigned significant lunar roles to the 
Center, though the benefits of this will not be felt in the immediate 
future. The near-term mix of tasks that NASA is planning to execute 
will involve more work going to design contractors located around the 
Nation, and less work going to operations contractors at KSC. We are 
working with state and county officials to help bring in non-NASA work.

Enabling Workforce Transition Through Retraining and Incentives
    Many members of the KSC aerospace workforce will need to transition 
from launch operations and Shuttle Orbiter ground processing to 
development, assembly, integration and test activities for our 
Constellation systems. Over the past year, NASA has made a concerted 
effort to share workforce among multiple programs, particularly 
Shuttle, ISS, and Constellation, enabling people to build crossover 
skills. The effort, known as Workforce Synergy, enables the 
Constellation Program to progress while ensuring that the critical 
skills necessary to safely and efficiently execute the remaining Space 
Shuttle missions (complete assembly of the ISS and service the Hubble 
Space Telescope). On the civil service side, NASA is tracking workforce 
time on Space Shuttle, ISS, and Constellation, and the analysis has 
revealed that more than half of our human spaceflight civil servants 
are working on more than one program. This encourages the transfer of 
lessons learned, the incorporation of operations needs into design, and 
demonstrates to the workforce that they will have future work on the 
Constellation Program as Shuttle is retired.
    NASA is providing the tools, training, and time for workers to gain 
experience and skills on new processes we know we will implement for 
Orion and Ares. NASA is applying these new processes required for 
Constellation into Shuttle processing now, to provide skill and 
experience that the workforce will need to do future work on 
Constellation. This will be real, hands-on experience that will qualify 
workers for future work. Examples include:

  <bullet> The United Space Alliance (USA) Shuttle Program Operations 
        Contract (SPOC) workforce is being used by Constellation to 
        process the Ares I-X vehicle for the first Constellation test 
        flight, scheduled for spring-summer 2009. The Ares I-X flight 
        will be conducted with the help of many contractor personnel 
        from the Space Shuttle workforce.

  <bullet> For STS-120, a single Solid Rocket Booster was stacked one 
        segment at a time to gather engineering information on the 
        Mobile Launch Platform for Ares I-X.

  <bullet> On STS-118, the Shuttle Endeavor was powered up during 
        operations and check-out using a new ``paperless'' process as a 
        test of future procedures for the Orion.

    As part of its efforts to cooperatively work transition issues with 
state and local officials, on May 27, 2008, NASA signed a non-
reimbursable Space Act Agreement with the Brevard Workforce Development 
Board (BWDB) with the objective of preparing Brevard County's highly 
skilled contractor workforce for the transition from Shuttle to the 
Constellation Program. These efforts will enhance the BWDB's mission to 
retain, strengthen, and expand the county's aerospace contractor 
workforce. Under the terms of the agreement, NASA will participate in 
initiatives of the Board's Aerospace Career Development Committee, meet 
with the Board to provide workforce data, provide a representative to 
serve as an ex-officio member of the BWDB Board of Directors, and 
collaborate in the development of space workforce training and 
assistance initiatives. The BWDB will work in support of existing and 
future KSC missions through cooperation in requirements planning and 
implementation of training and other initiatives to assist in the 
development of needed new skills and capabilities, and meet with KSC 
senior leaders periodically to educate and inform them on their program 
of work.
    NASA is also working with contractors to enable them to implement 
incentive programs to retain skilled employees as the Agency approaches 
transition. Examples include:

  <bullet> NASA is advised that United Space Alliance (USA) has 
        established two programs for employees impacted by Shuttle 
        transition. The Enhanced Severance Pay program will provide USA 
        employees who are laid off a minimum of 4 weeks' pay and 
        maximum of 26 weeks' pay, depending on years of service, 
        subject to policy criteria. The Shuttle Program Operations 
        Contract (SPOC) Completion Bonus, which is additive to Enhanced 
        Severance Pay, will provide SPOC employees with critical/
        essential skills who are laid off with a minimum of 15 weeks' 
        pay and maximum of 26 weeks' pay, depending on years of 
        service. More than 6,000 USA employees (4,000 of whom are at 
        KSC) meet the ``critical/essential skill'' criteria.

  <bullet> On April 30, 2008, NASA announced a modification of the 
        Lockheed Martin Space Systems External Tank contract which will 
        provide incentives to eligible contractor personnel to ensure 
        mission success and construction of the remaining External 
        Tanks to support the Space Shuttle through its retirement. The 
        contract modification is valued at $39.5M.

  <bullet> On June 10, 2008, NASA announced a modification of the Pratt 
        & Whitney Rocketdyne (PWR) Space Shuttle Main Engine (SSME) 
        contract to incorporate an employee retention incentive plan to 
        ensure that critical skills are retained to enable the safe 
        fly-out of the Space Shuttle fleet. The modification is valued 
        at $16.8M.

KSC Future Role in Human Spaceflight
    KSC is already taking a leading role in many areas of the Agency's 
future human spaceflight program, including:

  <bullet> Supporting Exploration experiments on the ISS.

  <bullet> Constellation program integration and support for safety, 
        reliability and quality assurance (SR&QA); systems engineering 
        and integration; and test and evaluation. This effort supports 
        integrated hazards analysis and preliminary hazard analysis; 
        Risk Management, and quality assurance for the Constellation 
        Program.

  <bullet> KSC ground operations activities include project management 
        and integration; responsibility for achieving all Agency ground 
        operations objectives allocated to the launch and landing 
        sites; leading design, development, test and engineering, and 
        logistics activities for all ground processing, launch and 
        recovery systems; and serving as lead for ground processing, 
        launch and landing operations planning and execution. On June 
        6, 2008, NASA selected contractors for a fabrication of ground 
        support equipment for Constellation and other space programs at 
        KSC. The multiple award indefinite-delivery indefinite-quantity 
        contract has a maximum value of $400 million during a basic 
        five-year ordering period with the potential to be extended for 
        as much as 1 year past the end of the ordering period. Several 
        Florida companies, including Engravers Metal Fabricators of 
        Cocoa; TJ Inc. of Christmas; Precision Fabricating & Cleaning 
        Co., Inc. of Cocoa; Coastal Steel, Inc. of Cocoa; Met-Con, Inc. 
        of Cocoa; Samson Metal & Machine of Lakeland; and Specialty 
        Maintenance and Construction of Lakeland, were awarded 
        contracts as part of this award, along with companies from 
        other states.

  <bullet> KSC will provide contractor oversight for the Orion ground 
        processing effort, including ground support equipment, and will 
        lead the launch operations and recovery support during design, 
        development, test and engineering; as well as perform prime 
        contractor oversight and independent analysis.

  <bullet> KSC will support work that will be done under a contract 
        awarded on June 12, 2008 for the design, development, and 
        production of a new space suit system for Constellation 
        astronauts.

  <bullet> For the Ares I, KSC will lead ground processing, launch 
        operations and recovery support during design, development, 
        test and engineering; as well as lead launch operations 
        planning and execution for Ares I-X and other flight 
        demonstrations.

  <bullet> In support of the 2009 Ares I-X test flight, as well as 
        other flight demonstrations, NASA started the construction of 
        facilities modifications to KSC in 2007. KSC is modifying 
        equipment and facilities used most recently by the Space 
        Shuttle, such as Launch Control Center Firing Room One, and 
        Launch Pad 39B, to prepare for Constellation testing.

  <bullet> Other construction of facilities (CoF) projects to be 
        carried out as part of the Agency's transition activities 
        include modifications to the Operations and Checkout building, 
        the Vehicle Assembly Building (VAB), and the Multi-Payload 
        Processing Facility (MPPF). Constellation's facility 
        requirements continue to evolve in parallel with flight 
        hardware maturity. As project offices are created and move into 
        manufacturing and processing, facilities requirements are being 
        identified, evaluated, and requested. The contractor workforce 
        that will be associated with construction of facilities 
        projects has not been included in the ``Workforce Transition 
        Strategy--Initial Report.'' At this time, NASA cannot estimate 
        the number of contractor personnel to be associated with the 
        various CoF projects, in part because Agency bases its contract 
        awards on open competitions that do not stipulate workforce 
        numbers. In addition, the full scope of CoF activities in 
        support of Constellation is not yet known.

    Further into the future, KSC will support lunar architecture work 
for the Constellation Program system engineering; ground operations, 
and assembly for Orion and Ares I Low Earth Orbit operations phase; 
Ares V ground processing, launch operations and recovery support during 
design, development, test and engineering; final assembly of and ground 
processing support for human lunar lander; and lunar surface habitat 
management and integration. Additionally, KSC will be the NASA lead for 
lunar surface in situ resource utilization systems and support surface 
systems logistics concepts, all of which are vital to our Exploration 
success.
    Therefore, given the exciting and varied amount of work that is in 
KSC's future, it is clear that NASA is not going out of business at 
KSC; rather, this transition will enable a new line of NASA business at 
KSC as the Center increases its involvement with Exploration activities 
that will be pursued for decades to come.

Launch Services Program
    As we prepare for the future of human spaceflight, it is important 
to remember that KSC has also been key to launching NASA's robotic 
explorations of the Earth and space, and this will continue through the 
transition from Shuttle to Orion and beyond. The Agency's Launch 
Services Program (LSP) has maintained a success rate of 98.8 percent 
since 1987. LSP supports NASA science missions, as well as the launch 
of National Oceanic and Atmospheric Administration spacecraft (e.g., 
Geosynchronous Operational Environmental Satellites), Department of 
Defense spacecraft (e.g., Global Positioning System and Defense Support 
Program), and commercial satellites (e.g., GeoEye 1).

Commercial Space Activity at KSC
    In addition to playing a key role in the Constellation Program, KSC 
will support commercial space activity. NASA is actively encouraging 
the growth of a new, robust, commercially-based space economy through 
the Commercial Orbital Transportation Services (COTS) project. From the 
beginning, NASA has considered COTS to be an investment in space 
commercialization, and with that investment, there were inherent risks 
associated with stimulating a market capability that is in its infancy. 
Therefore, NASA is providing $500 million as ``seed money'' to spur the 
commercial space industry to develop and demonstrate commercial orbital 
transportation services. It is also important to understand that NASA 
is only one investor in the overall demonstration of commercial cargo 
services. The commercial space companies (and their other private 
investors) are the largest investors because they stand to reap the 
financial benefits of developing a proven commercial space 
transportation capability that they can sell to other non-NASA 
customers.
    Both of the funded COTS Phase I partners, SpaceX and Orbital 
Sciences Corp., plan to demonstrate cargo mission capabilities to the 
ISS in calendar year 2010. NASA has identified ISS commercial cargo 
requirements in the 2010-11 timeframe, and the Agency is in the process 
of procuring commercial cargo services through the ISS Commercial 
Resupply Services acquisition. The Request For Proposals (RFP) for 
these services was released on April 14, 2008, with an award expected 
by the end of 2008.
    By investing in U.S. private industry through COTS, NASA is 
facilitating development of reliable, cost-effective access to low 
Earth orbit (LEO). The intent is to create a market environment in 
which commercial space transportation services are available to 
Government and private sector customers. The availability of safe, 
reliable and economical service to LEO will help NASA achieve the 
Nation's goals of retiring the Space Shuttle and building a new space 
transportation system.
    In addition to COTS, the possibility of leasing land to one or more 
commercial entities to develop and operate a Commercial Vertical Launch 
Complex (CVLC) on KSC property is being considered.

Enhanced Use Leasing (EUL)
    NASA's use of Enhanced Use Leasing (EUL) improves the Agency's 
performance by allowing it to recover asset values, reduce operating 
costs, improve facility conditions, and improve mission effectiveness. 
It also opens up opportunities for commercial vendors who can make 
effective use of NASA facilities and equipment at the Agency's Centers, 
including KSC. NASA encourages the use of its facilities by other 
agencies, industries, and universities (e.g., Space Shuttle Landing 
Facility). NASA's Centers have begun to develop enhanced use leases for 
their underutilized real property, and KSC and Ames Research Center 
(ARC) have participated in an EUL demonstration program that will 
likely continue to result in lease awards in FY 2009. NASA will 
continue to provide a fiscal year report to Congress on the progress of 
its use of enhanced use lease authority.

Iran, North Korea and Syria Nonproliferation Act (INKSNA) Relief
    In order to minimize impacts to NASA's workforce, it is essential 
that the Agency transition from the Space Shuttle to Constellation as 
quickly and as smoothly as possible. One key element of this effort is 
the extension of relief from the Iran, North Korea and Syria 
Nonproliferation Act (INKSNA) to enable the Agency to purchase Russian 
services beyond 2011. On April 11, 2008, the Administration submitted a 
proposed amendment to Congress to extend the exception for payments to 
Russia for Soyuz crew transportation and rescue services until the 
Orion Crew Exploration Vehicle reaches Full Operational Capability or a 
U.S. commercial provider of crew transportation and rescue services 
demonstrates the capability to meet ISS mission requirements. In 
addition, the amendment would enable NASA to purchase Russian-unique 
equipment and capabilities, such as sustaining engineering and spares, 
through the operational life on the ISS. This is essential to maintain 
an American presence onboard to sustain and utilize the ISS. Continued 
operation of the Station is also important for the developing cargo 
resupply commercial market. We look forward to working with the 
Congress on enactment of this crucial legislation.

Conclusion
    NASA continues to make steady progress in managing its challenges, 
including the critical challenge of transitioning our Shuttle workforce 
to exciting new projects. The Agency has assigned leadership roles and 
responsibilities for exploration and science missions to NASA's ten 
field Centers across the country in order to help restore the core 
technical capabilities across the Agency as we transition from the 
Space Shuttle to new capabilities. Thanks to its dedicated, highly 
skilled aerospace workforce, Kennedy Space Center will continue to play 
a key role in launching both human and robotic space missions, as it 
has since it was established in July 1962 as the Launch Operations 
Center.
    In a short span of years, we have already taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in our solar system. These 
efforts will result in tremendous opportunities for those interested in 
becoming involved in space exploration and development at KSC, in both 
the Federal and commercial space sectors.
    Chairman Nelson, with your support and that of this Subcommittee, 
we are making the right strategic choices for our Nation's space 
program. Again, thank you for the opportunity to appear before you 
today. I would be pleased to respond to any questions that you may 
have.

    Senator Nelson. Dr. Griffin, I think I heard something new. 
You spoke of a cut of three to four thousand jobs. Instead of 
the projection, on the upside, that we've heard, of 6,400 jobs. 
You want to clarify?
    Dr. Griffin. Yes, sir. You and I have, of course, talked 
privately about that in your offices, and we have talked 
publicly about that. We--the projected cuts of 6,400 people 
that we're showing in that initial Workforce Transition Report, 
did not--and could not at the time--also include the work which 
we expect to come to KSC in the future as we develop Ares and 
Orion and move on to our lunar--to our lunar systems.
    So, we think, at this point, that the net reduction would 
be somewhere in the three to four thousand, rather than in the 
six to seven thousand range.
    Senator Nelson. Even during the time-frame of 2011?
    Dr. Griffin. We do not think the 6,400 that was offered in 
that report represents the complete picture. We're putting this 
picture together, as we go. You will receive, by law, a new 
report every 6 months, and as increasing maturity of the newly 
developed programs becomes available, we will refine those 
estimates. But our best guess for a long time has been three to 
four thousand, not six to seven thousand, even in 2011.
    Senator Nelson. Well, this is the first time that that has 
been stated publicly. In your previous testimony before our 
committee you had said 6,400. So, now putting it at three to 
four thousand, instead of the 6,400, even in year 2011. In the 
chart of the contractor workforce that was shown the high end 
was a 6,400 cut, low end was showing a cut of about 5,300, in 
2011. Now we're hearing a cut of considerably less. Of three to 
four thousand.
    Dr. Griffin. Yes, sir.
    Senator Nelson. That is some news. I can't say it's good 
news, but it's certainly news that's a step in the right 
direction.
    Now, to put this in perspective, the overall employment at 
the Kennedy Space Center is about 14,500. The projections that 
you all put out in your cuts were from just the Shuttle 
workforce, which started at 8,000, not at 14,500. So, is it 
reasonable to think that the workforce over and above the 
Shuttle workforce at the Kennedy Space Center will be fairly 
much intact, or do we not know?
    Dr. Griffin. I think that that workforce will remain fairly 
well intact. There certainly can be collateral effects of 
retiring the Shuttle that may influence that workforce, but I 
would, again, offer to this committee that we are, after all, 
retiring the Shuttle. So, eventually there will be no Shuttle 
jobs.
    What we are not yet able to show is the number of new jobs 
that will be developed in the course of awarding bids for Ares 
I, Ares V, Altair Lunar Lander, KSC ground operations to 
prepare the facilities and the pads for those vehicles, ISS 
experiment support, as we begin to use the ISS, and many other 
things that we do intend to do here at KSC that are budgeted, 
but for which contracts are not yet awarded, and therefore no 
preliminary manpower count can be allocated.
    So, you're seeing reductions in Shuttle, but you're not 
seeing, yet, and we'll give it to you when we have it, but 
you're not seeing, yet, the increases that will result from new 
programs.
    Senator Nelson. And, part of that is the fact that you will 
basically assemble the Orion spacecraft here in the ONC 
building?
    Dr. Griffin. That's affirmative. The contractor--the 
winning contractor on Orion is now working with us to modify 
the ONC building at the Cape for Orion assembly.
    Senator Nelson. So, to put it in its context, I want to do 
this, because I think this is, although we can't say good news 
when you talk about cuts, it is clearly a step in the right 
direction of mitigating these cuts, a total of 14,500 
approximately that are employed at the Space Center. About 
2011, before we start ramping back up in 2012, you're looking 
at a net of three to four thousand cuts from that total 
workforce of 14,500.
    Dr. Griffin. That's what we think today, sir, and as I said 
in my opening statement, we are working to mitigate that 
number. We do not take the loss of our skilled workforce 
lightly, and have been working every day to find ways to 
ameliorate that issue.
    Senator Nelson. Before I turn to Senator Martinez, I just 
want to say that you know how I have expressed to you, and all 
of you, in rather vigorous terms, that your own goals for NASA 
include 10 healthy Space Centers. Needless to say, when one of 
those Space Centers gets absolutely whacked, where its heart is 
cut out, it's not a healthy Space Center, it's a Space Center 
that's on life support.
    So the fact that that you have given us this news today, I 
think, is significant. But, in terms of specifics, of nailing 
down the net job loss, it's really going to be when you report 
to us much later this year. Is that going to be the time when 
we will have a better fix on the specific number of job loss?
    Dr. Griffin. We probably won't have a significant reporting 
change in, for the October report--that would be 6 months after 
the one we gave you from April, and they're due every 6 months, 
as I know you're aware, but I wanted to get on the record. 
Because some of the significant contracts will still not have 
been let at that point.
    So, we have a considerable amount of forward work yet to do 
before we would have put out RFPs, selected contractors, and 
then been able--from, with that behind us--to give any sort of 
an immediate, an ameliorative estimate.
    So, you won't have something significantly different this 
October.
    Senator Nelson. I just want to say that I have had 
innumerable private conversations with Dr. Griffin. And he is 
doing everything humanly possible, within the confines that he 
has to operate in, to mitigate these losses, and to be creative 
in an approach for the future workforce here at Kennedy Space 
Center, which we will get into the specifics of later on.
    I thank you for that, Dr. Griffin.
    Senator Martinez?
    Senator Martinez. Well, I'm looking forward to hearing from 
the other members of the panel, as well, but just to follow up, 
Dr. Griffin, as you go forward and make these additional 
contracts that will then give a clearer picture of the 
workforce left--what, if anything, can we from Congress do to 
help alleviate the problem? To minimize the job loss?
    Dr. Griffin. Within the context of--I think Senator Nelson 
has his finger on the core of the issue, and so I'll restate it 
again, for emphasis. But, it is--it is in the nature of what it 
is we do here at KSC. We integrate and launch space vehicles 
here--it's NASA's primary center for doing that. And I've 
worked down here on and off for 30 years now, in one role or 
another. This, in some ways, is the least satisfying of those 
roles, I liked it a lot better when I was in closer touch with 
the hardware.
    But what we do here is we integrate and launch space 
vehicles. The retirement of the Shuttle, and the development of 
new systems that will enable us to return to the Moon, and also 
service the International Space Station as the Shuttle does, 
are necessary things. The Shuttle retirement, and the 
development of new systems is necessary for this Nation.
    The only thing which could have prevented this downturn in 
operations period that some have called ``the gap,'' would have 
been for the Congress of the United States, and for the 
Administration to request, and for the Congress to approve, a 
significantly higher NASA budget, so that we would operate 
while we were also doing development.
    We didn't do that. The Administration has proposed for the 
last 5 years, and the Congress has approved, for the last 5 
years, essentially, in constant dollars, a flat NASA budget. 
Within the context of that budget, we are doing everything 
humanly possible to minimize this gap.
    We have a forward plan to sustain the Space Station, 
admittedly, through the services of our Russian partners. But 
it will at least protect our $100 billion investment in the 
Station.
    But within the context of the monies that we have 
available, I believe we have the best plan that we can have, 
and we have the plan which causes the least disruption 
possible, here at KSC.
    I wish that it were less. I've said this on the record for 
the 3 years and 2 months that I've had this job. I wish that 
there were something else that we could do about it. But, 
within the context of the resources available, we're doing the 
best we can.
    Senator Martinez. So, the job losses that we're going to 
anticipate are reasonably forecasted--they're very reasonably 
forecasted, given a 5 year legacy of flat budgets for NASA by 
the Administration and the Congress?
    Dr. Griffin. Yes, sir. We have projected--for several years 
now, we have known, and we have been very clear--that there 
will be a gap between Shuttle flights, and Ares/Orion, which 
will be the replacement vehicles.
    Senator Martinez. So, you basically have been fulfilling 
your mission, given what the Congress has given you, and what 
the White House has given you?
    Dr. Griffin. That is correct, sir. So, we have known of 
this gap, we are trying to plan our way through it, it is no 
secret.
    Now, it is regrettable, the fact that it is not a secret 
does not mean I don't regret it--I hugely regret it. But, we've 
done the best we can to plan our way through this very 
difficult time.
    Senator Martinez. Thank you, I have no other questions.
    Senator Nelson. And I want to point out that Dr. Griffin 
operates within constraints. He's given a budget that he has to 
live within, and so his public stance has to be in support of 
that budget.
    Now, let me just illustrate how difficult this is. When we 
launched Challenger over two decades ago, there was a return-
to-flight cost to bring back the Shuttle. That cost was not 
only the investigation and the examination of what happened, 
but also the recovery of the Shuttle itself off of the bottom 
of the Atlantic. But, the Administration and the Congress 
supported NASA by replacing those funds that NASA had to use 
for the cost of recovery. Not so this time.
    In the loss of the Space Shuttle Columbia, the costs of 
recovery were $2.8 billion. NASA was forced by the Budget 
Office to eat that out of its operating revenue. Thus, that was 
the reason that last year, bipartisan Senators got into the 
NASA funding bill, the Appropriations bill, an additional 
billion dollars just to partially reimburse NASA for the money 
they had spent on the recovery of the Space Shuttle Columbia.
    Of course, at the end of the day, we couldn't get the 
support and that effort was not successful. So, we're trying 
the same thing again this year.
    The problem is that you start to run out of time, as it 
gets closer and closer to the time of the shutdown of the Space 
Shuttle.
    Let me ask you, Dr. Griffin, NASA's report on the economic 
impact of NASA in Florida, points out that for every direct job 
at KSC, it is multiplied into 2.5 jobs in Florida. The question 
is, the reverse of that. Do you anticipate the total loss of 
jobs to be 2.5 Florida jobs for every job that is lost at KSC?
    Dr. Griffin. Yes, sir, that is the multiplier effect that 
we're talking about, so--if those analyses are very difficult 
to do, but if you believe the analysis, then the multiplier 
effects of government-funded work at KSC is about 2.5 to 1, 
either up or down.
    Senator Nelson. OK.
    Now, let's look ahead. Which Space Center, is going to 
manage the Constellation ground processing contract?
    Dr. Griffin. That would be here at KSC.
    Senator Nelson. OK. That's good to have on the record. 
Since the processing is going to be here, that ground 
processing contract is going to be managed at the KSC 
management level.
    Dr. Griffin. Yes.
    Senator Nelson. Mr. Cooke?
    Mr. Cooke. Yes, sir, that's true. We have the ground----
    Senator Nelson. Get a little closer to the mike.
    Mr. Cooke. We have the Ground Operations Project Office at 
Kennedy Space Center which will manage that.
    But irrespective of the management--which I appreciate that 
KSC wants to manage its own work, and that is our plan, but the 
crucial point, in terms of job losses, is the work would be 
done here. I want to get that on the record as well.
    Senator Nelson. For the audience, the new rocket, is called 
Ares, and the new spacecraft, which is a design like the old 
Apollo capsule, only it's a lot bigger, is called Orion. 
Together the whole thing is called the Constellation project.
    Has there been discussion about locating the Constellation 
sustaining engineering work here at Kennedy?
    Dr. Griffin. Yes, sir, there has. And we're considering 
where we want the split in the work to be. As we transition 
from development to routine operations, you then raise the 
question of how do you handle the sustaining engineering for 
those systems, and where should it go? And it has been our 
position that by and large the sustaining engineering work 
should wind up here at KSC.
    Now, that would be a change in our paradigm from the 
Shuttle era, but we're changing what we're doing. In order to 
return the United States astronauts and our international 
partners to the Moon, we have a suite of development projects 
which must take place. And so the development centers--Johnson 
and Marshall--will be continuously busy with the development of 
new systems, and here at KSC, folks will be continuously busy 
with operating systems that have been developed. So, we think, 
in large measure, that the balance of sustaining engineering 
will probably wind up being here. That will be a difference 
from past practice.
    Senator Nelson. Whereas, under the Shuttle, that sustaining 
engineering was done at other Centers?
    Dr. Griffin. That's correct.
    Senator Nelson. It was done at Johnson and Marshall?
    Dr. Griffin. Primarily.
    Senator Nelson. Well, that's some good news. And of course, 
you don't want to venture to guess how many jobs that might 
entail?
    Dr. Griffin. Well, I don't. Because, I mean, to be very 
honest, we're trying to give you the best bang for the buck 
that we can. The objective that I have always had since we had 
an opportunity offered by this President and this Congress to 
return to the Moon, the objective that we have is to utilize 
the fewest possible number of people for launch operations and 
sustaining engineering, because that reduces the cost of it, 
and then within the context of a fixed, overall NASA budget, 
that allows more money to be made available to do the kinds of 
things that I know you want to do, just as much as we do. So, 
the less money that we can spend on operations, the more we 
have for other things.
    It has then been my goal to move some new types of tasks 
down here to KSC to make up for other types of work which will 
no longer be done.
    Therefore, hence the assembly and integration of Orion 
being done at the ONC building. Now, we have several more 
contracts of a major scope to let. It is my hope that we can 
do--it is my hope that the winning contractors will also plan 
to do much of their assembly and integration work here at the 
Cape. That hasn't been done in the past. So, we're changing 
some of the paradigms about how NASA executes its business.
    Senator Nelson. Well, I think whoever the next President 
is, we're going to request that he keep you as Administrator of 
NASA.
    Dr. Griffin. Drop me a note and let me know how that works 
out.
    [Laughter.]
    Senator Nelson. Mel will work on one side and I'll work on 
the other side.
    All right, before I turn it to you, I want to get this in. 
You know that here at Kennedy, we have an expertise in 
logistics management.
    Dr. Griffin. Surely.
    Senator Nelson. Have you considered developing a 
centralized logistics capability for future programs here at 
KSC?
    Mr. Cooke. I don't think we've discussed that in great 
detail.
    Dr. Griffin. We haven't got that far, to be honest with 
you.
    Senator Nelson. Well, I want to suggest that you consider 
that. Kennedy has that expertise.
    Dr. Griffin. Yes, sir. Suggestion accepted. We're still 
early in our developmental phase, and I'm not dismissing or 
minimizing your point, we'll note it down and we'll take it 
under action.
    Right now, I'm worried about the problems of finishing the 
Station and developing new systems, and I have no, in fact, 
my--you know, I would love to be in a world where I was worried 
about the logistics for supplying Ares and Orion and returning 
to the Moon--that's the place I want to get to.
    Senator Nelson. Senator Martinez?
    Senator Martinez. That's the exciting stuff.
    Dr. Griffin. It is, yes, sir.
    Senator Martinez. And we really thank you and your team for 
all that you're doing to minimize the pain in our community, 
and to not only lead the program, but to also be mindful of 
those problems and concerns.
    And I'd like to ask this question, and maybe one of the 
others might prefer to answer, but it's up to you--tell me 
about that relationship with the Russians, and tell me about--
the concerns that we have all voiced, and we all have. I 
understand that we now have Medvedev as the new President, 
Putin has stood in the background.
    You know, I have been to Georgia, not the one that grows 
peaches, but the other Georgia.
    [Laughter.]
    Senator Martinez. And these people live in constant fear 
that the Russians will cut off their gas. And not because they 
haven't paid their bill, but just because the Russians will use 
the supplying of gas as an instrument of international 
politics, as an instrument of policy. Now, that's kind of 
foreign to us, as Americans, but this is the way they play the 
game.
    Are we concerned that in a moment in time when we might 
have no other alternative, that the Russians might decide that 
they'll fly someone for us, or provide a mission, if we were to 
do something different somewhere else in the world, or whatever 
they might come up with? I mean, have these discussions taken 
place?
    And let me broaden the question a little further--you know, 
if you--I remember they had a return to Earth, you know, OK, 
but not exactly in the place that they had planned for it to 
be. As I recall, they were 700 miles off course, and so 
operationally, are we concerned about the capabilities? And, 
you know, I understand you all have to continue to work in a 
positive atmosphere, but I think we need to ask these questions 
today, about what is life going to be like during that 5 year 
period, when we're totally dependent upon the Russians for 
manned flight?
    Dr. Griffin. I do understand, sir. I run NASA, and I need 
to stay out of world politics, and will.
    Senator Martinez. That's the great thing about being a 
Senator, we can build rockets, and do international politics, 
and second-guess anybody better than anybody.
    [Laughter.]
    Dr. Griffin. And you should be very grateful that I will 
stay out of world politics.
    [Laughter.]
    Dr. Griffin. With regards to operating with the Russians as 
partners, and the reliability of their systems and all of that, 
I'm going to turn that answer over the Bill Gerstenmaier.
    Gerst has lived in Russia, and worked with the Russians, in 
the course of our Shuttle Mir program. We may have some folks 
at NASA who have more experience working with Russians than 
Gerst does, but not many.
    So, Bill?
    Mr. Gerstenmaier. First of all, I can't answer the 
political questions, either. But, I can talk from an 
engineering standpoint, and from a capabilities standpoint.
    We've worked very closely with the Russians, we work with 
them daily onboard Space Station today. As you mentioned 
earlier, it's an international facility. We have to coordinate 
things back and forth--who generates oxygen, when, who removes 
oxygen, we provide power to the Russians, they provide re-boost 
to the Space Station for us--so, it's truly a cooperative 
engineering effort between us and the Russians.
    And from a technical engineering standpoint, that's going 
extremely well. We're very good partners, we exchange data 
every day, we are in constant communication with them, the 
Space Station cannot fly with either country in charge, it 
requires both countries to work cooperatively together, and as 
an engineering team, that's been going extremely well.
    You mentioned the Soyuz, that didn't return correctly. 
Probably the most--thing that concerns us the most, is that the 
instrumentation, or propulsion section did not separate 
correctly from that spacecraft, and that forced it to fly a 
different entry trajectory than we anticipated.
    Two vehicles have done that--the last two vehicles in a row 
have done that. There's currently a Commission going on in 
Russia, investigating that activity. Their report is due out 
sometime this summer. I have made one trip to Russia to go 
understand how they were progressing with that analysis, they 
were very open with me, they showed me all of the data, they 
showed me the drawings, I saw the physical hardware, I went 
through a detailed discussion of their engineering processes, 
they're the same as ours, they're searching for root cause, 
it's not easy flying in space, and they're having problems 
understanding that, but they're working through it very well.
    I will go, again, to Russia, here in about a week, and I 
will, again, get a chance to see.
    I think the thing that concerns me a little bit is the fact 
that we will have a single transportation system, not that it's 
Russian, not that it's another country. You know, when we had 
the Columbia, tragedy if it wasn't for the Russians, we would 
not have been able to keep the Space Station manned, and we 
would not have the Space Station we have today.
    So, it's nice having two transportation systems that can 
back each other up. And that's where we want to get to--we want 
to get this CEV flying as soon as we can. We need stability in 
our budget, we need stability in our direction, we need to keep 
moving forward, we've made good progress. Doug and his team 
have done a great job of moving things forward, we need to keep 
that momentum going forward, so we're dependent upon the 
Russians for as short a period of time as we can, and then we 
can have, back to our dual transportation system, which is what 
we really want for Space Station.
    Senator Martinez. OK, I appreciate that good answer.
    I suppose that what we need to do is to focus on trying to 
minimize the potential for the political issues to arise that 
might give cause to that. And I know in many spheres, we work 
very cooperatively with the Russians, and I know there's a lot 
that we do together, frankly, when it comes to trouble spots in 
the world. They're greatly cooperating with us on issues 
relating to nuclear proliferation and in that regard I know 
that is a very, very hands-on cooperative relationship just as 
it is on the space program, as you've described.
    So, I'm one of those that's, you know, very optimistically 
looking for a very good strong relationship as we go forward. 
But at the same time, it is a troubled time, it is a troubling 
sort of scenario we see that we would be so dependent. And I 
guess this issue that you mention, as well, just the fact that 
we'll be relying on a single mode of transportation, and it 
better all be working or it would be--really not good for the 
Space Station.
    Relating to the future here at KSC, we haven't touched on 
what the second panel will be focusing on to some degree, which 
is the alternatives to space exploration, in combining public/
private partnerships.
    Dr. Griffin, can you tell us a little bit about where you 
see that future, and how do you see that incorporating into 
what we do here at the Kennedy Space Center?
    Dr. Griffin. Senator, I will have to respectfully say I'm 
not an expert on those issues, and we're supportive of them. 
But, how work in other sectors of the economy could blend in 
with what is done here at KSC to support East Central Florida 
is certainly a goal I share with you, but one that I would have 
to--I hope to hear some clever ideas from future panel members, 
as well. I will be in a listening mode on that, other than a 
talking mode.
    Senator Martinez. Good deal. Thank you.
    Senator Nelson. One of the painful lessons in the layoffs 
of Apollo was that when we ramped back up on the Space Shuttle, 
it was hard to get some of those technical positions filled, 
because people, since there was a big gap there, had packed up 
and moved away, and had left NASA. You want to comment on what 
you plan to do as we ramp up here?
    Dr. Griffin. Well, we are, even now, beginning efforts at 
retraining and transition for folks who we think need to 
transition on--from Shuttle on to Ares and Orion. Some types of 
folks, for example, some types of skills won't be needed. We 
won't be having Shuttle tiles anymore. So, we are working with 
the companies, and beginning to work with other Federal 
agencies and State agencies to try to forecast which folks can 
transition over and have that shift happen.
    Doug, do you have any more comments on that, or Gerst?
    Mr. Gerstenmaier. We have a couple of training 
opportunities for employees to go begin training for some of 
the new skills, as we anticipate the work that's coming, the 
new type of work we describe may be less processing, more--not 
quite as much hands-on, getting ready to go launch kinds of 
things as you describe, some of the other skills.
    We've got some training opportunities for folks to go do 
that. We're trying to make those available to employees. We've 
worked with the companies some flexibility in terms of time 
off, things for employees to do, the State's been also 
supportive in helping us with some education classes along 
those lines.
    So, we're trying to take our existing workforce that knows 
how to fly complicated space hardware, take that basic 
knowledge, and then apply it in a slightly different manner by 
giving them some skills on top of that.
    So, we've been working pretty actively with the various 
companies to try to prepare for that activity, for the ramp up.
    Senator Martinez. Mr. Cooke?
    Mr. Cooke. Yes, sir.
    Senator Martinez. We do have USA processing for Ares I-X 
test launch next spring, so that's using a workforce that has 
been working Shuttle to come over and begin getting skills in 
what we're doing, and we have worked very closely with Bill's 
organization, Space Ops, to figure out where we can get 
synergies between what their skills are, and what work we need 
to have done, so that is a part of the transition effort--
something that we've put a lot of effort into and continued to 
look for opportunities to begin to get the employees working in 
areas where we will be going on Constellation, so that they'll 
have those skills. And I know that Bill's also working--has 
worked a couple of retention activities in order to keep 
critical skills going on the Space Shuttle program.
    Dr. Griffin. And further, we've looked at some procedures, 
you know, today we use a lot of paper products to process our 
vehicles here. We're going to some wireless systems where we no 
longer need to have paper products, we're actually putting 
those in place today in the Shuttle program, and that's 
allowing employees to actually participate and use the system 
that will be the system of the future. So, they're actually 
getting real skills today processing Shuttle hardware with the 
same kind of paperless systems that they will be using to 
process the next generation of vehicles. So, we're looking 
forward, and we're trying to actually use those systems and 
skills today, so they'll be more seamless when we transition to 
the new systems in the future.
    Senator Nelson. Well, this is good, I want to suggest, 
additionally, that you take the experience of the Base 
Realignment and Closure Commission, BRAC. Specifically, the 
Department of Defense worked with the Department of Labor and 
the Department of Commerce in order to minimize the disruptions 
and to help in the workforce transition as they shut down 
military bases.
    And so the Department of Commerce, and the Department of 
Labor, having done this, this is another opportunity for you to 
reach out.
    Dr. Griffin. We have begun to do that, specifically, with 
those two agencies, and we will continue.
    Senator Martinez. I just have one last question when you're 
done.
    Senator Nelson. Go ahead.
    Senator Martinez. I was just going to ask about the current 
Shuttle missions. I know we just had a fabulous mission that 
concluded. I know we had a little hiccup in some debris, 
apparently, was visible in the--which apparently turned out to 
be of no consequence. Just give me a word on where we are on 
finishing out the Shuttle program, I know it's been terrific, 
how we got back to flight, and things seem to be going very 
well, but I just wanted to hear from you on that.
    I know this last mission, in terms of what it accomplished, 
had to have been very satisfying to all of you.
    Dr. Griffin. It was, sir, and Bill Gerstenmaier is the guy 
whose job it is to get those missions executed, so I'll let him 
comment.
    Mr. Gerstenmaier. And the next mission we have will be the 
Hubble Servicing Mission, so we're going to go back to the 
Hubble Space Telescope again, and to put a brand new set of 
optics and upgraded cameras on it, repair some gyroscopes on 
it, so that's a very exciting mission--that will be this fall 
on October 8.
    Again, because that's the first flight where we're not 
going to the Space Station, we have to have another Shuttle 
ready, in case a rescue is needed for the Shuttle that's 
serving the Hubble, so we'll have two vehicles out on the 
launch pads--one out on 39B and one on 39A.
    And then after that flight occurs, that vehicle from 39B 
will roll over to 39A and will carry logistics up to the Space 
Station, and the cargo that it's carrying up are systems that 
will allow the Space----
    Senator Martinez. When will that be?
    Mr. Gerstenmaier. That will be November 10th. And the idea 
there is to carry up the equipment that's needed to increase 
the crew size onboard Space Station to 6. You know, currently 
we have three crew members that stay onboard Space Station, but 
we're going to increase that to three----
    Dr. Griffin. Increase that to 6.
    Mr. Gerstenmaier. Increase that to 6, increase it by 3, I'm 
sorry. And then we'll bring our water reclamation system up on 
that Shuttle flight. We'll bring some crew sleep stations up, 
some galley equipment, some extra exercise equipment, and an 
additional bathroom for the Space Station.
    So, we'll be prepared, then, to increase the crew size in 
the spring of next year, probably around May of 2009.
    The next flight will be roughly, we think, in February, and 
we have a change request out now that's being reviewed, that 
will bring up the last solar array, the last big solar panels 
on Space Station, and that will get added out on the starboard 
side of the Space Station, out on the S-6 side, or solar 
starboard side 6, solar arrays will be added to Space Station 
early next year.
    Then, the flight after that will be a Japanese-exposed 
facility, it'll be the third piece of their laboratory they had 
a little pressurized section, and then the big lab which was 
just launched this last flight, and then have an exposed 
facility, and that will be in kind of the April time-frame of 
next year.
    And then there's--beyond that there are about 7 more 
Shuttle flights to carry logistics up, and essentially outfit 
Station, so it's ready to, essentially, be built, be completed 
and then be serviced by commercial cargo transportation, 
serviced by the Soyuz and serviced by the CEV, or commercial 
crew transport, whenever it comes online.
    Senator Martinez. Very good, thank you.
    Senator Nelson. Dr. Griffin, one of our problems in the 
past is that Kennedy has been pigeonholed as an operations 
center. And you know how I have talked to you about bringing 
research and development here, to expand the role.
    So, is it possible, from your leadership standpoint, to 
expand KSC's charter, and include R&D as part of its charter?
    Dr. Griffin. Sir, I--with respect, I would not urge that we 
try to make Kennedy a development center. We need development 
centers at NASA, and we need operations centers. Where I am 
trying to move the boundary a bit, back--because development 
work would be removed from places that have it, and brought 
here.
    And second of all, it really would do nothing to address 
the job loss of the people whose jobs from Shuttle would be 
cut. All you would be doing is importing development engineers 
from other areas, or hiring them locally, but it would not 
ameliorate the job losses of the people who would not be doing 
Shuttle operations.
    Senator Nelson. Well, you know my opinion. We've got 
150,000 acres here, and expand the role, other than being an 
operations center. And indeed, you have had some good news 
about the Constellation ground processing, and about the 
sustaining engineering. And I brought up the question of our 
overall logistics management.
    Once Ares and Orion become operational, could the program 
shift here to Kennedy Space Center?
    Dr. Griffin. Well, that depends on what you mean by program 
management. And again, I'm not----
    Senator Nelson. Tell me what you mean.
    Dr. Griffin. The overall program management will include 
developmental efforts for succeeding block upgrades, you know, 
we--our equipment can't stay static in time, as well as 
improvements and also the overall Constellation program work 
will include the development of Ares V, the heavy lifter and 
the Altair Lunar Lander, and then later on, surface systems for 
the Moon.
    The overall program management for those things needs to be 
at the development centers. I'll call it a sub-set of that 
program management--the operational, the execution of 
operational could well reside here at KSC.
    Senator Nelson. Well, that would be interesting. When might 
you come to a conclusion on that?
    Dr. Griffin. Too soon to tell, to be straightforward with 
you, it was a significant topic of discussion at my last 
management monthly.
    Senator Nelson. What is that technical term again, 
operations, what?
    Dr. Griffin. Well, the operational program of flying the 
existing vehicle, you know, when it is developed, within the 
envelope of its flight regime could well be managed here at 
KSC, and it is my view that it probably should be. But there 
are a number of subtleties to it that we need to work out, and 
so I would not want to give the impression that those decisions 
have been finalized yet--it is a current topic of discussion 
within NASA, as we seek to manage our affairs efficiently.
    Senator Nelson. I know you don't want to get tied down on 
these details, because you just have it under discussion, but 
the overall operational program, are we talking about Ares and 
Orion and its future, or are we talking about all the way to 
Ares IV?
    Dr. Griffin. It's too soon to tell, sir, and I just have to 
leave it at that.
    The first thing on our plate is getting Ares and Orion 
developed and working, and that is clearly a Developmental 
Center activity, in conjunction with our contractor's on this, 
Boeing and Lockheed, and ATK.
    When that development program is done, then we have to 
address, I think, the transition of a development program to an 
operational program. I would like to see the operational side 
of the program managed here at KSC, and I've been quite 
forthright about that.
    As I said a few moments ago in questioning, that represents 
a change in how we do business at NASA, I think it's a 
productive change, but it is a change. That's as far out on 
that limb as I want to go right now, or I risk saying something 
that would commit us to a path that would prove later to be 
stupid, and I don't want to do that. I want time to study the 
issues to make sure that we get it right.
    But we are leaning in the direction of including some new 
roles and missions here at KSC that haven't been done before. 
But we want to do it right, and we want to think about it 
carefully before we commit to it.
    Senator Nelson. I was asking Orbital Space to study the 
issues, as well, in the launch here from the Cape, and they 
chose, instead, to go and launch from Wallop's Island.
    Dr. Griffin. We did, sir.
    Senator Nelson. And I will continue to ask those questions. 
Do you have included in the President's budget request for 
NASA, the contractor retention programs?
    Mr. Gerstenmaier?
    Mr. Gerstenmaier. Yes.
    Senator Nelson. Thanks. The answer is yes. OK. And tell me, 
as you project out over the years in the chart that showed the 
high of 6,400 lost by 2011, nevertheless the civil service 
employment with regard to the Shuttle Program, stayed level at 
1,000 at each of the years, even in 2011, 2012, 2013. Explain 
that, please?
    Dr. Griffin. I guess in the Civil Service side, we have a 
core side of folks that are going to be doing the new work we 
just talked about, you know, we have the test programs that are 
going to be done down here, we have some development associated 
with that. The Ground Processing contract management that we 
talked about earlier, that's going to be managed here by civil 
servants. So, that's where that workforce is going to be 
utilized in the future.
    The Safety Group sits here, and stays the same. We now have 
common engineering down at the Kennedy Space Center like we do 
at other places where the engineering team supports more than 
just one program, they support all programs, so as the Shuttle 
ramps down, that same engineering team that supports those 
activities, will continue to support engineering activities, 
but now for the new vehicles. So, so that's the basis of why 
that stays flat through that period, in terms of civil 
servants.
    Senator Nelson. All right, thank you.
    Now, as you know, we have a difference of opinion about 
flying one additional Space Shuttle flight. You have responded 
in your letter to the House Chairman. They've passed the 
authorization for one additional Space Shuttle flight.
    You're operating within the constraints of what you're told 
your budget can be, and I understand, you don't want to take 
money out of Constellation in order to put it into an 
additional Shuttle flight.
    But, under a new Administration, if we were able to get the 
additional money for another Shuttle flight, over and above 
what you have already built into the budget, can you venture an 
additional cost for that additional Space Shuttle flight that 
would be to get a whole bunch of scientific experiments up to 
the Space Station that you don't have room for now?
    Dr. Griffin. We have said, I believe, in that report, and I 
know that, you know, I've been on the record publicly on this, 
that the marginal cost of that additional flight would be a few 
hundred million dollars, $300 to $400 million. I don't have a 
more precise estimate than that for you at this time.
    Senator Nelson. Will we be beyond the point of no return by 
the time we get a new Administration in place in early 2009?
    Dr. Griffin. No, sir. The--we have an 18-month, basically, 
integration and operations template for a given Shuttle 
mission, it's approximately that. So, we need to know--I do 
understand that the House has authorized that additional 
flight. You do understand that the Administration considers it 
not to be necessary. In the end, of course, we will obey the 
laws that are passed. If decisions are made by approximately 
February of 2009, that sort of a timeframe--we could execute 
such a mission, then, in the late summer of 2010, and we would 
be able to do that.
    Senator Nelson. OK. Well, we'll continue to work with you 
on that.
    Now, the critical piece of hardware that's got to be 
decided as to whether or not you continue to build additional 
hardware is the external tank. That's making the assumption 
that on the last Space Shuttle flight, this extra one we're 
talking about, that you have to have another external tank that 
would be used for a rescue Shuttle. At that point, would you 
necessarily need that extra ET, since the last Space Shuttle 
flight would be going to the safe harbor of the International 
Space Station?
    Dr. Griffin. And that's exactly the point. First of all, 
let's all recognize that there does, at some point have to be a 
last Space Shuttle flight.
    Senator Nelson. But right now, manifest on the last Shuttle 
flight in October of 2010, you're still having a spare, 
external tank, are you not?
    Dr. Griffin. Yes, we have a contingency flight beyond the 
last Shuttle flight. And we're looking at the things that you 
just described to see what makes technical sense, we're looking 
at the capability of the Space Station to support an extended 
crew for a long period of time, we're looking at the robustness 
of the Shuttle system, by that time we will have flown some 
more flights, we'll continue to look and we'll make the right 
trades at the right time to go support what we need to go 
support in the future.
    Senator Nelson. OK. The reason I wanted to get that out is 
the fact is that if there were a change in policy in the new 
Administration, we would have that additional external tank, so 
that if the choice were made by the new Administration to fly 
that additional flight of scientific experiments, we could, in 
fact, do it?
    Dr. Griffin. We're not limited on hardware. This was----
    Senator Nelson. We're not limited on hardware, exactly.
    Dr. Griffin. This is a policy difference that you have with 
this Administration, which I represent, and it's a fiscal 
matter. It does cost three or four hundred million dollars that 
is not appropriated in our budget today, and that we--I cannot, 
in good conscience, sit here and tell you I could fly that 
flight and just absorb that hit. Three or our hundred million 
dollars worth of content, that you have already approved, would 
have to go away. And so we don't have that money in the budget.
    Senator Nelson. And we understand that. You would have to 
be provided that additional money by the new Administration.
    Dr. Griffin. That would be correct, sir.
    Senator Nelson. Yes, sir.
    Senator Martinez. And that new Administration could be a 
Republican Administration or it could be a Democratic 
Administration.
    [Laughter.]
    Senator Martinez. And, by the way, it has to pass both 
houses of Congress, including the Senate, which has not yet 
passed this.
    Senator Nelson. Right.
    Senator Martinez. But, anyway.
    Senator Nelson. And speaking of that, the extra money that 
you want to put in this year, even in authorization, as we've 
got the authorization bill coming up sometime in July, it's not 
a done deal to pass it through the Senate, because one Senator 
can ball up the whole works, and grind the Senate to a halt.
    So, unless you have unanimous consent in the Senate, it 
might be tough sledding, even to get an authorization bill for 
NASA passed.
    Dr. Griffin. Which was, in part, why I made the point that 
within the context of our current authorization and 
appropriations--and especially appropriations--I don't have the 
money for that flight.
    Senator Martinez. Well, the new Administration budgets the 
Congress appropriates----
    Dr. Griffin. That is true, sir.
    Senator Martinez. And so, it's going to take a lot more 
than just a new Administration that is willing to do that, it's 
going to also take a Senate, particularly, that's willing to do 
it.
    Dr. Griffin. I regret more deeply than I can say, that when 
we agree on so many things that we have this continuing 
controversy over this AMS flight. I deeply regret it. But at 
this point, I simply don't have the resources to execute that 
mission, without removing resources from projects that have 
already been approved by the Congress.
    Senator Nelson. This has been an excellent discussion, it 
has laid the predicate, for now, the discussion of specifics as 
to how we can transition the workforce.
    Dr. Griffin, you, as usual, are candid, and you are doing a 
good job.
    So, we thank you, we will ask the second panel to come up, 
and as we are bringing them up, we will take a three-minute 
recess.
    [Recess.]
    Senator Nelson. Before we resume with our second panel--if 
we can have your attention back there--I'm going to ask Dr. 
Griffin if he would make one additional clarification on the 
last question that was asked of him.
    Dr. Griffin?
    Dr. Griffin. Yes, thank you, Senator Nelson.
    In hearing what was said in my mind, and talking with my 
NASA colleagues, I realized that we might have left some 
confusion in place in talking about whether or not this last 
flight is flown.
    In the draft authorization bill that you've offered up, 
there are provisions that require us to keep Shuttle production 
contracts open. That's extremely expensive to do, and that 
leads us into the $3 to $4 billion range to preserve the 
program for another year, which we--and this is the point of 
clarification--do not need to do to fly a final flight.
    Once the hardware has been delivered, if we are allowed to 
continue shutting down the program on schedule, as we planned, 
the launch team can launch that last flight on the monies that 
have been appropriated, even if it comes after the fiscal year 
boundary, because the money has already been appropriated, and 
normally you give us two-year money. And it would not require 
us to keep Shuttle production contracts open, thus allowing us 
to save considerably more money.
    Senator Nelson. And that's where you come up with the 
estimate of $300 to $400 million, extra?
    Dr. Griffin. Exactly, exactly. It's only if we retain the 
opportunity to produce more Shuttle hardware by keeping 
contracts open that we get into the multi-billion dollar range, 
and I would really, really want to avoid doing that.
    Senator Nelson. All right, thank you very much, Dr. 
Griffin, for that clarification.
    Dr. Griffin. Thanks for asking.
    Senator Nelson. Yes, sir.
    We want to welcome the next panel.
    Lynda Weatherman, the President and CEO of the Economic 
Development Commission of Florida's Space Coast, Ms. Lisa Rice, 
President of the Brevard Workforce Development Board, Mr. Randy 
Berridge, President of the Florida High Tech Corridor Council, 
and Mr. Steve Kohler, President and CEO of Space Florida. We 
certainly welcome you all.
    What we're going to do is ask you to keep your remarks to 5 
minutes, and is it OK with you that we just let them go, all, 
and then we'll get into the questions. And there is a clock 
before you, so you can watch your time.
    Ms. Weatherman?

 STATEMENT OF LYNDA L. WEATHERMAN, PRESIDENT AND CEO, ECONOMIC 
        DEVELOPMENT COMMISSION OF FLORIDA'S SPACE COAST

    Ms. Weatherman. Thank you. Thank you, Senators.
    The Economic Development Commission of Florida's Space 
Coast is seriously concerned of the economic and business 
impact of retirement of the Shuttle, and the impending gap of 
lost jobs due to transition. Earlier this year, NASA released 
preliminary estimates of the expected employment changes, as a 
result of the upcoming shifts in the workforce.
    Through 2010, the Agency projects between 5,700 and 6,400 
workers will be displaced. An internal EDC analysis of the 
higher job loss figure, using a widely accepted economic impact 
model, estimated that the cumulative economic impact to Brevard 
County over the next 3 years, at approximately 13,000 jobs 
lost, and $650 million in direct revenue.
    Since the announcement of the Vision for Space Exploration, 
the EDC worked to develop a plan of action to mitigate the job 
loss.
    The first, and successful, effort, was to attract and build 
the Crew Exploration Vehicles, Orion, in Brevard County. This 
was an immense undertaking, as in the 50 years of space 
exploration in the State of Florida, the state has never been 
successful in attracting the manufacturing and/or assembly of a 
launch vehicle of a major component of such size.
    On February 22, 2006, Lockheed Martin announced plans to 
assemble the CEV in Brevard County, contingent on securing 
final CEV contract.
    This will result in 400 direct jobs, and at minimum, $35 
million capital investment, a first successful--however, 
initial--step in mitigating the job loss due to the Shuttle 
transition.
    Now, for the plan of action to mitigate the job gap. The 
EDC strategy is centered around 4 initiatives--number one, work 
derived from exploration program, mostly our Constellation-
oriented programs; number two, commercial opportunities tied to 
COTS, CRS, supply chain business opportunities, satellite and 
assembly manufacturing facilities; three, space tourism; four, 
emerging opportunities.
    Initiative number one, exploration. Key one, keep the 
Constellation Program sold during the change in Administration. 
This involves educating the Presidential candidates, shaping 
platforms, and informing selected House and Senate members and 
staffers, related to the importance of Constellation to the 
state and Brevard County.
    Key two under the exploration program: get work tied to 
that and bring it here. Participate in a development and 
implementation of a plan for incumbent contract workers during 
a transition period from Shuttle to Constellation.
    Key three, make widespread distribution of Central Florida 
supply chain study results, which identify several hundred 
high-tech companies capable of satisfying Federal requirements, 
this will be spoken more by my colleague, Mr. Berridge.
    And finally, key four, identify and bring Constellation 
programs here to KSC, not as a sense of entitlement, but in the 
same spirit, Senator Nelson, and Senator Martinez, as we did 
with BRAC--identifying what can we do as a local community to 
enhance programs being brought here, what we do as a 
partnership, and certainly not a sense of entitlement.
    Initiative number two, commercial. Key one, identify and 
make contact with each potential contractor associated with 
COTS and CRS, and International Space Station.
    Key two, maintain KSC as the gateway to space, promote the 
use of utilizing existing launch infrastructure for support of 
the International Space Station for cargo, and leverage 
existing workforce inherent in the use of Atlas and Delta.
    Key three, promote and support the use of launch 
capabilities of crew support for ISS out of KSC, the United 
States of America, and to address the U.S. human spaceflight 
gap.
    Key four, identify and characterize all support facilities 
that may be of use to COTS, or CRS contractors.
    Key five, identify and characterize those incumbent 
contract employees that may be available to support commercial 
launch and processing opportunities.
    Key four, under commercial, identifying and promote to 
domestic and international satellite and relevant component 
manufacturers, the competitive advantages of locating plants in 
Brevard County.
    Initiative number three, space tourism--establish and 
maintain a flight operations capability in Brevard County, 
maintain awareness of the evolving space industry and promote 
the competitive advantage of Brevard County, and work with our 
tourist industry to promote this area--both in economic 
development and tourist initiative.
    In emerging opportunities, key one, maintain an awareness 
of those opportunities that involve exploiting KSC-developed 
technology, tracking newly assigned R&D tasking for KSC, 
promote KSC as a gateway to International Space Station, and 
the National Laboratory, market the national Shuttle Logistics 
Depot as the Depot for continuing support of Shuttle, ISS, and 
all Constellation programs.
    Number four, key number two under emerging opportunities, 
lobby for closer cooperation between all Federal agencies that 
have an interest or need for space-based operations, including 
DOD, NIH, DOA, DOE.
    The EDC will work with Space Florida, Enterprise Florida, 
Workforce Florida, and the Brevard Workforce Development Board, 
and other state and county organizations.
    Senator Nelson. I need you to wrap up, Ms. Weatherman.
    Ms. Weatherman. Yes.
    Senator Nelson. And each of your written testimonies will 
be put in and become as part of the record.
    Ms. Weatherman. OK, and one sentence and I'm done. Thank 
you, sir.
    While the challenges of our area are indeed serious, the 
passing successful actions will provide a template for future 
actions, however, the current potential recessionary economy, 
the need for support via Federal, State and local agencies is 
critical, and will determine the degree to which we mitigate 
the impending job loss at the Space Coast.
    Thank you, sir.
    [The prepared statement of Ms. Weatherman follows:]

     Prepared Statement of Lynda L. Weatherman, President and CEO, 
        Economic Development Commission of Florida's Space Coast
Economic Impact
    The Economic Development Commission of Florida's Space Coast 
(referenced in document as EDC) is seriously concerned of the economic 
and business impact of the retirement of the Shuttle and impending 
``gap'' of lost jobs due to the transition.
    Earlier this year, NASA released preliminary estimates of the 
expected employment changes at each of its centers as a result of 
upcoming changes to the agency's program of work.\1\
---------------------------------------------------------------------------
    \1\ ``Workforce Transition Strategy--Initial Report'', National 
Aeronautics and Space Administration, March 2008.
---------------------------------------------------------------------------
    Through 2010, the agency projects between 5,700 and 6,400 KSC 
workers will be displaced as NASA transitions from the Shuttle Program 
to that of the Constellation, before the center regains some employment 
as it ramps up in preparation for the new vehicle.
    An internal EDC analysis of the higher job loss figure, using a 
widely-accepted economic impact model and the opinions of our 
contracted Space Consultants, estimated the cumulative economic impact 
to Brevard County over the next 3 years at approximately 13,000 lost 
jobs and $650 million in lost income:

                              Estimated Economic Impact of Proposed KSC Job Losses*
----------------------------------------------------------------------------------------------------------------
                                          Direct \1\        Indirect \2\       Induced \3\           Total
----------------------------------------------------------------------------------------------------------------
                                                 FY 2008-FY 2009
----------------------------------------------------------------------------------------------------------------
Employment                                          700                301                419              1,420
Labor Income                                $44,800,000        $14,224,290        $12,236,400        $71,260,690
Output                                     $210,693,460        $48,808,770        $37,767,010       $297,269,240
----------------------------------------------------------------------------------------------------------------
                                                 FY 2009-FY 2010
----------------------------------------------------------------------------------------------------------------
Employment                                          900                387                538              1,825
Labor Income                                $57,600,000        $18,288,370        $15,732,520        $91,620,890
Output                                     $270,891,580        $62,754,130        $48,557,590       $382,203,300
----------------------------------------------------------------------------------------------------------------
                                                 FY 2010-FY 2011
----------------------------------------------------------------------------------------------------------------
Employment                                        4,800              2,062              2,871              9,733
Labor Income                               $307,200,000        $97,537,960        $83,906,760       $488,644,720
Output                                   $1,444,755,070       $334,688,630       $258,973,790     $2,038,417,490
----------------------------------------------------------------------------------------------------------------
                                                   Cumulative
----------------------------------------------------------------------------------------------------------------
Employment                                        6,400              2,750              3,828             12,978
Labor Income                               $409,600,000       $130,050,620       $111,875,680       $651,526,300
Output                                   $1,926,340,110       $446,251,530       $345,298,390     $2,717,890,030
----------------------------------------------------------------------------------------------------------------
* All numbers negative; analysis assumes average annual wage of $64,000, per EDC Space Consultants.
\1\ Captures the impact the initial job loss has on the KSC population.
\2\ Captures the impact of decreased inter-industry purchases as KSC responds to decreased activity.
\3\ Refers to the impact of the decreased activity that occurs across the Brevard economy because of the lost
  income paid by all of the businesses involved, directly or indirectly (diminished household spending).
Source: Economic Development Commission of Florida's Space Coast (using IMPLAN economic software).

Background and Early Success
    Since the announcement of the Visions for Space Exploration the EDC 
worked to develop a plan of action to mitigate the job loss. The first 
and successful effort was to attract and build the Crew Exploration 
Vehicle (Orion) in Brevard County. This was an immense undertaking--as 
in the 50 years of Space Exploration in the state of Florida, the state 
has never been successful in attracting the manufacturing and/or 
assembly of a launch vehicle of such a major component. On February 22, 
2006 Lockheed Martin announced plans to assemble the CEV in Brevard 
County contingent on securing the Final CEV contract. On August 31, 
2006, NASA announced the award of the contract to build the CEV to 
Lockheed Martin. This will result in 400 direct jobs and $35 million 
capital investment--a successful initial step in mitigating the job 
loss due to the Shuttle transition.
Plan of Action to Mitigate the Job Gap
    The EDC's strategy is designed around four key initiatives: (1) 
Worked derived from Exploration Programs (mostly Constellation oriented 
programs; (2) Commercial opportunities tied to COTS, CRS, Supply Chain 
business opportunities and Satellite Manufacturing and Assembly 
facilities; (3) Space Tourism; and (4) Emerging opportunities. The 
overall goals of the key initiatives is focused on generating new (and/
or retaining existing) high skill high wage jobs in Brevard County).
    Those Key Actions associated with each of the four major areas of 
interest are listed below.
Initiative 1--Exploration

    Key 1. Keep the Constellation program(s) sold during the change in 
administrations. This involves educating the Presidential candidates, 
shaping party platforms and informing selected House and Senate members 
and staffers relative to the importance of Constellation to the State 
and to Brevard.
    Key 2. Participate in the development and implementation of a plan 
for incumbent contractor workforce during the transition period from 
Shuttle to Constellation.
    Note: At the same time the space workforce is likely to decline, 
the demand for aviation workers in Brevard is expected to increase. 
Hence, it is critical that training programs be put in place to effect 
a smooth transition between these two sectors of the aerospace 
industry. It is also extremely important that the potential aviation 
employers be identified together with a characterization of their 
workforce requirements (skills, quantities and need dates).
    Key 3. Make widespread distribution of the Central Florida Supply 
Chain Study results which identified several hundred Florida High Tech 
Corridor companies capable of satisfying Federal requirements for small 
business participation in the Constellation program(s).
Initiative 2--Commercial

    Key 1. Identify and make contact with each potential contractor 
associated with COTS (Commercial Orbital Transportation Services) and 
CRS (Commercial Resupply Services (of the International Space 
Station)). Identify needs and demands of these contractors associated 
with COTS and CRS so that we can respond to their specific business, 
investment and workforce needs.
    Key 2. Maintain KSC as the ``gateway'' to Space. Promote the use of 
utilizing existing launch infrastructure to support the International 
Space Station (ISS) for cargo and leveraging existing workforce 
inherent in the use of Atlas and Deltas.
    Key 3. Promote and support the use launch capabilities of CREW 
support for ISS out of KSC to address the U.S. Human Space Flight Gap.
    Key 4. Identify and characterize all support facilities that may be 
of use to a COTS/CRS contractor.
    Key 5. Identify and characterize those incumbent contractor 
employees that may be available to support commercial launch and 
processing opportunities. This effort includes making available the 
Supply Chain information referenced above.
    Key 6. Identify and promote to domestic and international Satellite 
and related component manufacturers the competitive advantages of 
locating plants in Brevard County. As this industry sustains and grows, 
the need for additional sites in key markets such as the U.S. and 
Florida will be needed. The EDC will aggressively seek out this new 
diverse investment opportunity.
Initiative 3--Space Tourism

    Key 1. Support Zero G in establishing and maintaining a flight 
operations capability in Brevard.
    Key 2. Maintain an awareness of the evolving space tourism industry 
and identify potential flight operators and related ground based 
service providers.
    Key 3. Market Brevard's technical and tourism capabilities to the 
several space tourism operators.
Initiative 4--Emerging Opportunities

    Key 1. Maintain an awareness of emerging opportunities to include 
but not limited to:

        a. Exporting KSC developed technology to Brevard businesses and 
        conversely promote technologies and capabilities of those same 
        Brevard businesses to NASA and the Constellation prime 
        contractors.

        b. Tracking newly assigned R&D tasking for KSC.

        c. Promote KSC as the ``gateway'' to the International Space 
        Station National Laboratory.

        d. Market the NSLD (National Shuttle Logistics Depot) as the 
        depot for continuing support of Shuttle, the ISS, and all 
        Constellation programs. Additionally, promote NSLD in support 
        of commercial and space tourism hardware elements.

    Key 2. Lobby for closer cooperation between all Federal agencies 
that have an interest or need for space-based operations (to include, 
NASA, DOD, NIH, DOA, DOE, NOAA, FAA, etc).
    Note: The most common product associated with the activities 
surrounding ``emerging opportunities'' is likely to be a series of 
position papers suitable for education and lobbying.
    Key 3. Identify and attract diversified industries to Brevard 
County. These industries, not directly associated or inherent in space, 
will contain high tech methods and kindred skill mix classifications 
associated with potential loss workers tied to Transition. This key 
initiative is best noted in the recently successful location of Embraer 
on May 13, 2008. The assembly of the Very Light Jet (VLJ) Class Phenom 
100 and 300 in Melbourne, Florida will hire 200 technically skill 
workers. Some of these workers may be absorbed from the job loss tied 
to Transition.
General and Closing Comments

    1. The EDC will work with Space Florida, Enterprise Florida, Inc., 
Workforce Florida, Inc., the Brevard Workforce Board, and other state 
and county organizations together with companies from the aerospace 
community to accomplish the intent of the Space Plan.
    2. Many of the companies expressing interest in doing business in 
the county have need for financial assistance and/or incentives. 
Accordingly, part of our action plan is to develop a capability to 
define sources of financial support and to serve as a ``broker'' 
between the parties.
    3. Virtually all-prospective employers are interested in workforce 
quality and availability as well as available facilities to house their 
employees and operations.
    While the challenges for our area are indeed serious, the past and 
successful efforts provide a template for future actions. However with 
the current potential recessionary economy, the need for support via 
Federal, state and local agencies is critical and will determine the 
degree to which we mitigate and at best nullify the impending job loss 
on the Space Coast.

    Senator Nelson. Thank you.
    Ms. Rice?

              STATEMENT OF LISA RICE, PRESIDENT, 
           BREVARD WORKFORCE DEVELOPMENT BOARD, INC.

    Ms. Rice. Thank you for allowing us to come before you and 
address the efforts the Brevard Workforce Development Board is 
taking in regards to the Aerospace Workforce Transition.
    It has certainly been a collaborative effort, and I thank 
all of those who have been involved. We're very anxious to 
serve the community, and mitigate that impact of the changes, 
as you mentioned, Senator Nelson.
    In August 2007, the Workforce Board released the Aerospace 
Workforce Outlook Report, which actually talked about 3,500 
jobs being lost, at this point. And in it, we also address the 
need to gather stakeholders to determine the path that we would 
take in this workforce transition. Those stakeholders were 
brought together, and form the Aerospace Career Development 
Council. They set up work teams, and the result is $1.25 
million coming in general revenue from the State of Florida in 
funds.
    It's the implementation plan of those funds that I'm going 
to speak about in just a minute, however, I'd like to tell you 
very quickly about a bridge.
    In 1989, the Oakland Bay Bridge top deck collapsed onto the 
lower deck. Normally, it would have taken months to bring that 
bridge back into full operation. However, it was just closed 
for over 30 days. The amazing reason that it was--had a quick 
rebuild, is directly relevant to the upcoming changes from 
Shuttle to Constellation. The winning contractor embedded his 
city's workers, and the city inspectors into the production 
plans, to allow for a quick design to development to 
implementation cycle. This is exactly the type of forward 
thinking that needs to be applied, and it is what the Workforce 
Board is taking, with respect to retooling and retraining of 
the aerospace workforce.
    The Board's Transition Plan begins with a communication 
effort, focused on lifelong learning. We know that we need to 
engage the workforce in skills upgrades for both Constellation 
activities, and for those who may venture into totally new 
phases of their careers. We look at this as both retooling for 
the aerospace phase, and also retraining for new careers.
    Additionally, we know we have to communicate with 
businesses, to understand the emerging skills that they have, 
and that will translate into skills training for our workforce.
    Our second component involves an assessment of workers, 
again understanding where their skill levels, and what type of 
training needs to occur, in order to bring them to the skills 
levels needed for Constellation activities, or for new 
occupations. So, obviously, training is the largest component 
of our plan.
    We have already started with retooling of workers with 
Lockheed Martin and the Orion production activities. We were 
able to sit early with Lockheed Martin, and determine the needs 
that they have, and this has really given us a jumpstart with 
their workers.
    The retooling activities are essential, if we want to model 
that proactive stance that was taken with that bridge in 
California. Our workforce has been through a lifecycle of a 
space flight system, they are ready for a new challenge.
    Following NASA's Systems Engineering Framework, our 
training is focused on common technical processes, we 
incorporate tools and methods, and we know we have to engage 
the workforce early. We have to recognize that the U.S. has not 
had a new space flight system since Shuttle, and it is 
incumbent upon us to undergo a corresponding organizational and 
skills transformation, one that has not been seen since Apollo.
    We have the talented workforce, now we can build upon 
skills by embedding their training into the design, the 
development, the production, and the implementation phases that 
are critical to Constellation's success. Embedded training is 
not a new concept, by the way, it was used with the 
International Space Station, where operations people were 
embedded with the design and development, and that allowed them 
both to share ideas and perspectives.
    Our fourth component, and final component, addresses the 
human factor of the plan. It's about the life changes that are 
occurring with this workforce, already. We will provide career 
transition mentoring that's designed to motivate workers, by 
moving through the phases of transition, helping them 
understand challenges, define goals, and develop realistic 
action plans.
    In closing, Wayne Gretszky was often recognized as the very 
best hockey player ever, and when asked why, Wayne replied that 
he goes to where the hockey puck is going to be, not to where 
it is. Well, that's exactly the same approach that this 
Workforce Board is taking. We're working now to increase the 
workforce proficiency, at the earliest possible stage, while in 
complete support of the beginning of a new systems engineering 
life cycle.
    Thank you for your time.
    [The prepared statement of Ms. Rice follows:]

              Prepared Statement of Lisa Rice, President, 
               Brevard Workforce Development Board, Inc.

    Thank you for this opportunity to address your committee regarding 
the efforts of Brevard Workforce Development Board (BWDB) related to 
the aerospace workforce transition. This has been an ongoing 
collaborative effort and I thank all of those who were involved. We are 
anxious to serve the community and mitigate the impact of the changes 
as much as possible.
    In August 2007, the Board released the Aerospace Workforce Outlook 
Report, which addressed several recommendations including gathering 
stakeholders to determine the path for the workforce transition. The 
Aerospace Career Development Council (ACDC), set up work teams around 
workforce, education and economic development activities, which 
resulted in securing $1.25 million in general revenue funds for 
retooling and retraining the aerospace workforce. It is the 
implementation plan for these funds I will focus on in the next few 
minutes. However, before I begin outlining the plan, I'd like to 
quickly tell you about a bridge.
    In October 1989, the Oakland Bay Bridge top deck collapsed onto the 
lower deck. Normally it would take months to bring such a structure 
back into full operation; however, the bridge was closed for just over 
30 days. The amazing reason for this quick rebuild is directly relevant 
to the upcoming changes from Shuttle to Constellation. The winning 
contractor embedded his workers and the city's inspectors into the 
production plants to allow for a quick-design to development to 
implementation cycle for rebuilding the bridge. This forward thinking 
approach is the same one the Board is taking with the retooling and 
retraining of aerospace workers.
    The Board's transition plan begins with a communication effort 
focused on life long learning. Engaging the workforce in skills 
upgrades is necessary for those going to work on Constellation and for 
those who may venture into totally new careers. We view this as either 
retooling their skills for the next phase of aerospace work or 
retraining them for their next phase of life.
    Additionally, communication with businesses will provide us 
information about emerging skills which then translates to training 
requirements for the workforce.
    Our second component involves a workforce assessment to understand 
where workers need to improve to be competitive for Constellation 
activities. This will ensure that NASA and contractors take full 
advantage of the current workforce skills for the new spaceflight 
system.
    However, not all workers will remain with Constellation and for 
those who are ready for the next phase of their life the workforce 
assessments will be valuable in pointing the way to high demand, high 
wage occupations in the area.
    Training is the largest component in the transition plan. We're 
already retooling workers with Lockheed Martin's Orion production 
activities. The ability to sit with Lockheed Martin at an early stage 
to identify these training needs gave a jumpstart to the training 
processes.
    These retooling activities are essential if we want to model the 
proactive approach used on that bridge in California. Our workforce has 
been through the life cycle of a spaceflight system and they are ready 
for the challenges of a new system. Following NASA's systems 
engineering framework, training is focused on common technical 
processes, incorporates tools and methods, and engages the workforce 
early. We must recognize that the U.S. has not had a new spaceflight 
system since the Shuttle and it is incumbent upon us to undergo a 
corresponding organizational and skills transformation that's not been 
experienced since the end of Apollo.
    We have the talented workforce, now we can build upon their skills 
through training embedded in the design, development, production and 
implementation phases critical to Constellation's success. Embedded 
training isn't a new concept as a similar approach was used with 
International Space Station allowing operations people to learn the 
system first-hand and offer operations perspectives from the start.
    The fourth component addresses the human factor of the plan. This 
is about life changes the workforce is already experiencing and will 
provide career transition mentoring designed to motivate workers by 
focusing on moving through the phases of transition. Our staff will be 
there to help the workers understand challenges, define goals and 
develop realistic action plans.
    Additionally, staff will analyze customer education and work 
experience to provide direct information on occupations that match 
closely to their skills. As training needs are identified staff will: 
provide information on available courses; enter into individual 
training agreements with financial support; and follow up with 
individuals throughout the training process.
    In closing, Wayne Gretsky was often recognized as the best hockey 
player ever. When asked why, Wayne replied that he goes where the 
hockey puck is going to be, not where it is now. We are taking this 
same approach in order to, increase workforce proficiency at the 
earliest possible stage while in complete support of the beginning of a 
new systems engineering life cycle.
    Thank you for your time.

    Senator Nelson. Thank you.
    Mr. Berridge, of the Florida High Tech Corridor Council?

            STATEMENT OF RANDY BERRIDGE, PRESIDENT, 
               FLORIDA HIGH TECH CORRIDOR COUNCIL

    Mr. Berridge. Chairman Nelson and Senator Martinez, thank 
you, on behalf of UCF President John Hitt, USF President Judy 
Genshaft and UF President Bernie Machen, thank you for the 
opportunity to share a brief overview about our Florida High 
Tech Corridor Council and our mission to attract, retain, and 
grow high tech industry, and the workforce to support it in the 
23 counties in the central part of the great State of Florida.
    We invest in research projects with companies, we invest in 
marketing projects with economic development organizations, and 
we invest in workforce projects with workforce boards, and 
community colleges.
    In our first 12 years, we have partnered with more than 250 
companies on 900 research projects, where we have put $50 
million of Florida High Tech Corridor funds on the table, and 
the success of the program is that those companies have put 
more than $450 million on the table, either in their funds, or 
in Federal grants, to do the research--think about it--with the 
very companies and the very industries that we're all working 
to attract, retain, and grow.
    In that process, we engaged 1,500 doctoral and graduate 
students, and 300-some professors to do those research 
projects. A co-ed came up to me last year and said, ``This is 
really a retention program,'' and I said, ``Yes, go to the head 
of the class, it certainly is.''
    We also invest in marketing projects, to market our entire 
region as a high-tech region, and were recognized last year by 
Core Net Global as one of the top 5 innovative high-tech 
regions in North America.
    We do that by partnering with our economic development 
partners and creative folks, like Lynda Weatherman, who come up 
with ideas, in terms of getting more contracts for existing 
companies and new companies, in terms of the very subject we're 
talking about today. So, we're proud to invest in the program 
that, that Lynda came forth with.
    We also invest in workforce projects with our community 
colleges, and I'd like to single out Jim Drake, with Brevard 
Community College. We invested--thanks to Tom Gamble, God rest 
his soul--we invested more than $100,000 in a recertification 
program for their existing, nationally recognized aerospace 
technician recertification program--think about that, helping 
re-certify a recertification program.
    I'd like to share with you in this setting--I realize it's 
a public setting--Enterprise Florida hosted a gathering of the 
CEO and members of his team, of a rather large company that was 
looking to do an expansion in our great state. We had dinner 
with the CEO. And in that dinner, he indicated that Florida was 
not on the top 3 states that he was considering for that 
expansion. And one of the members of the team at that dinner 
asked him why, and he said, ``Well, I'm really concerned that I 
can't find the engineers, some 200 that I need out of the 600 
employees that I'm going to hire for this expansion, I don't 
believe I can find the engineers in Florida that I need to do 
this project.''
    I asked him if he was familiar with the imminent transition 
of the Shuttle to the new--I didn't get past the word ``new,'' 
Chairman Nelson, he cut me in mid-sentence--he said, ``You've 
just come to the top 3 in terms of states we're considering.'' 
It hit him that the potential for this entire region is to help 
Brevard County and help others in terms of mitigating the 
results of this surplus.
    So, the Florida High Tech Corridor Council is here to 
serve, through research projects, helping our marketing 
friends, and helping our workforce friends, in this charge that 
you have.
    Thank you for the time.
    [The prepared statement of Mr. Berridge follows:]

           Prepared Statement of Randy Berridge, President, 
                   Florida High Tech Corridor Council

    On behalf of UCF President John Hitt, USF President Judy Genshaft, 
UF President Bernie Machen, co-chairs of the Florida High Tech Corridor 
Council, thank you for the opportunity to present a brief summary of 
our 23-county Florida High Tech Corridor Council (FHTCC). Our mission 
is to attract, retain and grow high tech industry through our Matching 
Grants Research Program (MGRP) as well as through our marketing and 
workforce initiatives. On behalf of our three research universities, 
our council, our core team, our economic development, workforce, 
academic, corporate, governmental and community partners we hope that 
we can add value to the region's efforts during this time of 
transition.
    Let me first start by providing a very brief background about the 
Florida High Tech Corridor Council (FHTCC). A dozen years ago, the 
presidents of the two major research universities on the I-4 Corridor, 
Dr. John Hitt at the University of Central Florida and then University 
of South Florida President Betty Castor, recognized the benefits of 
working together to provide research and other support needed by high 
tech, high wage industry. Through designation by the Florida 
Legislature the Florida High Tech Corridor Council was formed in 1996. 
The University of Florida joined the Corridor Council in 2005.
    Our Council recently commissioned a study to analyze the impact of 
our unique public-private partnership that engages university 
researchers with corporate entities seeking technological 
breakthroughs.

    The results are outstanding: During the first 12 years of 
operation, the FHTCC, through its Matching Grants Research Program, 
delivered an incredible 9-fold return on investment . . . $450 million 
on an initial investment of just $50 million.

    The basics are this: From July 1996 to June 2008, FHTCC invested 
$50 million in 900 applied research projects with more than 250 
Corridor companies . . . attracting $450 million in corporate and 
Federal matching grants. Importantly, these figures do not include the 
application of a 3 to 1 multiplier commonly used in economic 
development assessments.
    The sheer numbers and return on investment are impressive, but the 
real story is what's behind them. Each applied research project 
involved the keen minds of professors and students at the Corridor's 
three renowned universities (the University of Central Florida, the 
University of South Florida and the University of Florida) and their 
corporate partners at companies large and small. Let me give you just a 
few highlights:

  <bullet> 20 participating companies leveraged our grants to attract 
        60 Federal SBIR/STTR grants worth $12 million.

    &One such company is Rini Technologies Inc. Its scientists and 
        engineers, along with UCF professors, have conducted applied 
        research on a new system to cool laser weapons. Let me quote 
        Dan Rini: ``Without a doubt, the FHTCC matching grants research 
        program had a measurable impact. The structure of the program 
        is well thought-out, and it pays dividends. Without the 
        program, more than likely I would not be in business.''

  <bullet> More than 100 patents have been awarded to participating 
        partners and more than 130 additional patents are pending.

  <bullet> 8 new companies have been created.

  <bullet> 7 new centers of research have evolved, thanks in part to 
        our FHTCC support.

  <bullet> 1,500 graduate students have been engaged in these applied 
        research projects.

  <bullet> More than 120 of those students have been hired by the 
        participating companies.

  <bullet> 300 faculty members from the three universities have guided 
        the research.

    These applied research projects have generated countless 
technological breakthroughs, ranging from improved medical therapies 
and treatments, to vastly more efficient lasers, satellite 
communications, computing ability and power generation. Whether for 
military, industrial or consumer applications, there are far too many 
technological accomplishments to list here.
    The study clearly demonstrates that the Matching Grants Research 
Program (MGRP) produces vast, tangible benefits for the companies that 
UCF, USF, and UF partner with in Florida's High Tech Corridor and for 
the state's economy as a whole. Whether it's developing new 
intellectual property, building a highly skilled workforce, obtaining 
specialized equipment for our universities, creating new companies to 
commercialize emerging technologies . . . or achieving technological 
breakthroughs that improve the human condition . . . the MGRP, through 
the leadership of our three universities, has consistently delivered a 
tremendous return on investment through this unique partnership with 
corporations, the state and the Federal Government.
    As we have noted earlier, with the mission to attract, retain and 
grow high tech industry in our 23-county Corridor, FHTCC invests the 
majority of its state funds in its MGRP, benefiting companies in the 
varied industries we are working to attract, retain and grow. FHTCC 
focuses matching grants on the following industries targeted for 
growth: Agritechnology; Aviation and Aerospace; Digital Media/
Interactive Entertainment; Financial Services; Information Technology; 
Life Sciences and Medical Technologies; Microelectronics/
Nanotechnology; Modeling, Simulation and Training; Optics and 
Photonics; and, Sustainable Energy.
    In addition to a recognized successful research program, FHTCC also 
invests in marketing and other programs with more than two dozen 
economic development partners throughout our 23-county Corridor. So, as 
you would expect, we invest in advertising, trade shows and conferences 
across the state, the Nation and the globe as a way of promoting our 
Corridor as a high tech region. We also invest with EDO partners in 
programs designed to help companies in our various industry clusters. A 
prime example is our partnership with the Lynda Weatherman, President 
of the Space Coast EDC, and her associates, wherein we have invested in 
a program which she is managing to benefit not only Brevard County, but 
the other 22 counties in the Corridor. This initiative is designed to 
help companies obtain contracts to produce components and sub-
assemblies associated with the new crew vehicle as well as the 
manufacture of components for a variety of military equipment.
    The third major area of FHTCC investment is associated with 
workforce programs. We have invested in the development of associate 
degree programs by our community college partners in the areas of: 
Microelectronics; Biotechnology; Modeling, Simulation and Robotics; 
Photonics; IT Security; Wireless Technologies; and Digital Media. 
FHTCC, in partnership with Brevard Community College (BCC), invested 
$100K in a project designed to update the components of BCC's 
nationally recognized aerospace technician recertification program.
    In addition to research, marketing, and workforce projects and 
programs let me conclude by showcasing an example of how I believe we 
can help Brevard County and the region mitigate the impact of the 
surplus of employees associated with the transition from the Shuttle to 
the new crew vehicle.
    I recently attended a gathering at which Enterprise Florida and 
regional economic development leaders hosted a major corporate 
relocation prospect. At that dinner, the CEO of this prospect 
corporation shared with us that our state was not in the top three 
locations he was considering for the expansion of his company. The 
reason he gave was his concern over his ability to hire some 300 
engineers. I asked him if he was aware of the surplus of some 6,000 
highly trained engineers, technicians and other personnel associated 
with NASA's transition from the Shuttle to . . . the CEO did not let me 
finish the sentence. He realized the potential solution to his problem 
and told us that we had just made it into the top three.
    This community of state, regional, county and city governmental, 
academic, corporate, workforce, economic development, and community 
leaders have and will continue to work together with NASA to resolve 
issues associated with the imminent surplus of some truly outstanding 
employees.

    Senator Nelson. Thank you.
    Mr. Kohler, of Space Florida?

      STATEMENT OF STEVE KOHLER, PRESIDENT, SPACE FLORIDA

    Mr. Kohler. Thank you, Senator Nelson, Senator Martinez. 
It's our pleasure to be here.
    As you are aware, Space Florida is a special district 
created by an Act of the Florida legislature in 2006, which is 
focused, as an entity, on the aerospace industry across 3 
sectors, civil, military and commercial.
    We're heard a lot of discussion this morning up to this 
point on the--with a great deal of appropriate focus on the 
civil side, with the detailed description of the activities at 
KSC and NASA.
    One of the points that I wanted to bring up at the moment 
was the NASA bill that has made its way through for 
authorization and appropriations, although--as we heard--it may 
or may not survive in whole or in part through the process. 
There were some relevant items in that bill that I think were 
appropriate to draw attention to.
    One, there was an inclusion of reference to the development 
of $150 million toward a commercial space crew vehicle. Another 
one was a reference to the support of COTS-D development, which 
is a commercial competition that would add to the current COTS 
competitive environment.
    There were several references to the International Space 
Station, including a specific reference to the Life Sciences 
Lab that the State of Florida invested over $30 million in 
developing on the campus at KSC, and the relevance to that 
relationship between the ISS, now designated as a National Lab, 
and the lab that the State of Florida invested in.
    Also, there was a reference to the need for the development 
of enhanced-use lease policy renewal, which is a critical tool 
that the state, Space Florida, and other entities would have to 
utilize in order to develop properties on that 150,000-acre 
tract of land that currently is held by NASA.
    In addition, there was a specific reference to the need for 
an interagency study on range options, and range access, and 
then finally a reference to the need for export control issues. 
As you know, this has become a competitive challenge for us--
not only in Florida, but in the Nation, in order to have an 
effective space launch capability, and commercial development 
capability.
    From the state's perspective, and Governor Crist's 
leadership as the Chair of Space Florida Board, and his 
designee, Lieutenant Governor Kottkamp, the legislature in a 
tough budget year in the State of Florida, managed to 
appropriate directly, $20 million toward space-related 
activity. In addition, through S.B. 2310, directed 1.5 percent 
of the state's net pension assets to be used for R&D, advanced 
technologies--including space--and that is almost $2 billion 
worth of potential.
    And then, finally, in an informed consent legislation at 
the state level, which was a key piece in order to maintain a 
competitive edge, if you will, to entice commercial space 
interests for the State of Florida.
    Last week, our Board of Directors met, and we talked 
specifically on three--among many--elements. One was the 
assignment of Launch Complex 36 to the state through Space 
Florida, for the purposes of developing commercial space 
capability for multiple users. I can report to you that the 
delivery of that presentation to the 45th Space Wing was made, 
where the Space Wing has now moved up the chain of command, and 
last week was presented to General Shelton, and we expect it to 
move on through to the 4-Star for consideration. It is critical 
to have that piece of infrastructure to add to the capacity 
that NASA provides here at KSC.
    We also continue to pursue horizontal launch access 
options, and our relationship with NASA KSC included the 
signing of a recent MOU to enable us to pursue these kind of 
opportunities for development of assets that exist on the 
campus.
    And we continue to work, through your efforts, as you might 
recall, the assignment of Launch Complex 40, and one of the 
COTS competitors, and we work hard to develop continuing 
efforts with that company as it completes its obligations to 
NASA.
    And then finally, we continue to work toward the 
development of a Logistics Center, as well. We recognize the 
importance of this skill set that exists that is unique to this 
range, and this base, and in fact is unique to the marketplace. 
And many of the commercial providers have a distinct interest 
in that capability.
    Finally, on the military side, we are supporting research 
at UF, to develop a Blue Force tracking capability that would 
involve situational satellite awareness development, and 
potentially commercial market application.
    We think that these are the kind of issues, and the point 
of drawing the attention to the relevance of those bill 
sections is that there is a connection between what is being 
considered in Congress, and hopefully, eventually, enacted in 
law, and what we can do at the state level to leverage, in 
order to improve these opportunities.
    Thank you, and I would be willing to answer any questions.
    [The prepared statement of Mr. Kohler follows:]

      Prepared Statement of Steve Kohler, President, Space Florida

Introduction
    Thank you Chairman Nelson and Senator Vitter:

    I am Steve Kohler, President of Space Florida. Space Florida is a 
special district responsible for promoting and developing Florida's 
space and aerospace industry. More specifically we were created by the 
Florida legislature and the Governor's office for the purpose of 
advocating for the space industry in Florida.
    I want to thank you for holding this hearing here at the Kennedy 
Space Center to address and bring attention to the issue of Shuttle 
workforce transition. As you all know, with the retirement of the Space 
Shuttle in 2010 approximately 6,400 jobs will be lost as a result.
    I would also like to thank you for working to get an additional 
$200 million in funding for NASA added to the Iraq Emergency 
Supplemental package. The added funding is critical for NASA's ability 
to return to flight activities associated with the Space Shuttle. This 
funding is also critical to help close the ``gap''--the anticipated 
time between the Shuttle retirement and the launch of the new 
Constellation program. As you know, the longer the gap, the more stress 
is placed on the Florida space and aerospace workforce. We need a 
strong retention program so that the skilled labor is in place when the 
new Constellation program is in full swing.
    Securing this funding will be a very significant achievement in 
such a tight fiscal year. Space Florida is pleased to be able to work 
with you and your colleagues on such an important issue. We will 
continue to support your efforts for additional NASA funding to help 
shape the budget for the incoming administration.
    Additionally, your work on the NASA Authorization bill is to be 
commended. While we realize the Senate version has yet to be 
introduced, your committee's leadership on this issue has been 
significant. We believe the House of Representatives has done a very 
nice job in working on a NASA Authorization bill that includes 
additional funding for NASA as well as important range study and 
enhanced use lease language. I would also like to applaud the Space, 
Aeronautics Subcommittee for working in a bipartisan manner to provide 
NASA with the tools to move from the Shuttle program to the 
Constellation program.
    However, I do think it is important to note that there are other 
options of returning to the Moon, and in the future, Mars, namely 
Commercial Orbital Transportation Services (COTS) D. COTS-D focuses on 
manned spaceflight and would work toward creating that capability in 
the commercial sector in addition to what NASA has undertaken with the 
Constellation program. The job creation from a COTS-D program would fit 
very well with the type of jobs that are currently held by NASA 
contract employees.

Actions by Space Florida
    While the space industry in Florida is enduring a difficult period 
of time with the Shuttle transition it is important to note that 
Governor Crist and the Florida legislature have done a tremendous job 
of promoting the overall space industry in Florida. Florida is not 
sitting back during the Shuttle transition; we are working to support 
your leadership and are bringing the Florida delegation together in 
support of the space industry, which as you know is vital to the 
economy of Florida.
    Space Florida is uniquely positioned to advocate for the space 
industry especially because of the tools the State of Florida has given 
us. Space Florida has the ability to work with the commercial space 
industry along with the Governor's office, the Florida legislature, the 
regional economic development groups, Congress, and many others. This 
flexibility gives us the capability to do tremendous things when 
working and advocating for the space industry in Florida.
    Space Florida's workforce initiatives are focused on bringing new 
government and private sector opportunities to this area of the state. 
We have partnered with the Florida legislature, Workforce Florida, the 
Brevard Workforce Development Board, the regional economic development 
groups, and many others to help to bridge the gap between Shuttle 
retirement and the advent of the Constellation program. We have taken 
the lead to collaborate with the Florida delegation in a national 
leadership role to secure funds that NASA has lost due to the Columbia 
accident and Katrina setbacks and to acquire future funding that is 
vital to the space program here in Florida.

Direct Action
    The workforce, as it relates to the Shuttle, has over time 
developed a very unique skill set that we are working to keep 
entrenched here in Florida. While many of Space Florida's initiatives 
to improve the workforce are indirect in fashion (i.e., introduction of 
new businesses and business growth to stimulate job growth), Space 
Florida has worked with the Brevard Workforce Development Board on 
projects to address the Shuttle retirement in a more direct fashion. 
For instance, Space Florida has awarded the Brevard Workforce 
Development Board with funding to assist in providing aerospace 
workforce services in Brevard County regarding the transition of the 
aerospace workforce from Shuttle program activities to the 
Constellation program. Importantly, Space Florida provided a $50,000 
grant to the Brevard Workforce Development Board to conduct an analysis 
of Space Shuttle retirement implications with respect to the aerospace 
industry workforce in Florida. This report was completed in August 2007 
and provided a forward-looking analysis of the Brevard County and 
statewide aerospace workforce that will be impacted by the planned 
retirement of the Space Shuttle in 2010.

Indirect Efforts
    Additionally, we are engaged in projects related to improving 
future range development, enhanced use lease agreements with vertical 
and horizontal capabilities, prospective trade and enterprise zones, 
and particularly future commercial space development. For example, 
Space Florida has worked with companies, including SpaceHab and SpaceX 
on different projects to deliver valuable cargo to the International 
Space Station (ISS) in the future. Further, our most recent project 
with SpaceHab will establish a space-based, biotech corridor that 
stretches from the ISS to the Space Life Sciences Lab here at NASA's 
John F. Kennedy Space Center.
    It is important to note that all of these investments being made by 
Space Florida for different projects, as well as research and 
development, will help to mitigate the effects of the Shuttle 
retirement. These research and development opportunities lead to job 
and new commercial partnerships at the Kennedy Space Center. For 
instance, our collaborative effort with the University of Florida on 
Blue Force Tracking Satellites will contribute most importantly to 
saving the lives of our troops in harm's way. As you all know, projects 
like this can lead to additional research, manufacturing, and thus new 
job opportunities in Florida.
    While many jobs will be lost as a direct result of cutbacks to NASA 
with the Shuttle retirement, I think it is important to keep in mind 
the many indirect jobs that will also be lost as a result. Many NASA 
employees will likely transfer to elsewhere in the country or at the 
very least move away from Florida to find opportunities in a similar 
field. When these direct jobs leave Florida, and particularly Cape 
Canaveral, businesses such as restaurants, hardware stores, and other 
``mom & pop'' establishments will be forced to close. As you well know, 
this will lead to very difficult economic times in Florida, which could 
be especially difficult considering the current economic troubles our 
Nation faces. However, you have a great opportunity to help turn things 
around.

Conclusion
    In conclusion, we will continue to partner with the Air Force, 
NASA, our industry stakeholders and other states, when appropriate, to 
compete to attract business to Florida. We know we have the workforce, 
infrastructure, and overall mission capabilities that will best serve 
the national interest of space research and exploration.
    We thank you again for coming and look forward to continuing to 
serve as a full-time resource to the Committee and our Florida 
delegation whenever and wherever you need us. I look forward to 
answering any questions you may have of me today.

    Senator Nelson. I was deeply disappointed in the Orbital 
Sciences Corporation decision to launch in Wallop's Island, 
Virginia, instead of utilizing so many tremendous assets of 
pads that can be converted at the Cape Canaveral Air Force 
Station. You mentioned going up the command of the Air Force, 
I've gone all the way to the new Four Star Head of Air Force 
Space, talking to him about making it easy for you guys to work 
with them so that we can convert some of those pads, just like 
we're doing for SpaceX right now. Convert them for commercial 
launches, other than what's out there with the Atlas and the 
Delta.
    Thank you for your presentation.
    Senator Martinez?
    Senator Martinez. Thank you. Well, you know, Mr. Kohler, I 
want you to know that Senator Nelson and I will be working as a 
team, and anything we can do to make sure that Congress is 
there for these kinds of appropriations as time goes on.
    And following up, as well, I'm going to be visiting the 
Patrick Air Force Base after we finish here today, on the very 
topic that you've discussed--the need for us to have a strong, 
cooperative partnership, so that the--the seeds have been 
planted over the last half century or more, here, of space 
exploration, can begin to now flourish as part of a broader 
participation by the private sector, which I think is really 
where the future ultimately lies.
    I just wondered if I could get a comment on those of you 
focused on workforce, as well as economic development, in 
reaction to what we heard today, which might be a substantially 
lower workforce loss than what we had been anticipating, and 
what your reactions are to that?
    Ms. Rice. I would start out by again, going back to the 
fact that the Workforce Board did do an Aerospace Workforce 
Outlook report in August 2007. And when we did that report, we 
actually looked at some things that NASA didn't. We sat down 
with the prime contractors, with the subcontractors, and we 
talked to them very privately, and we aggregated their 
information to come up with historic retention rates, their 
retirement rates, and then we talked about new business 
packages. And what they, as a company, thought they would be 
bringing, or could bring, and estimates about the manpower that 
they thought they'd use.
    And that's how we got to about a third of the workforce--
not including NASA's workforce, I might add--we're looking at 
about 3,500 to 4,000 people or about one-third, retirement, 
normal attrition. Another third, to new packages, new business 
work that these companies expect to be bringing in.
    Now, when I talk about new business work, it could very 
well be the kinds of things that NASA is releasing, or it could 
be new--completely new--business work that the company has in 
mind.
    So, that leaves us with around 3,000-3,500 that we see are 
without a job. And that doesn't mean that that's the only place 
that we focused, because as I say, we have to look at the 
retooling, as well. Even if they're going to go to new business 
packages, the skills that they have at a mature level of a life 
cycle, which is where they're at, have to have some upgrading 
to match with that new infancy level, shall we say, of a life 
cycle of a new spaceflight system.
    So, we see it as both pieces--we're looking at retooling 
for about 3,500, and we're looking at retraining, so there 
isn't a job loss, for another 3,500.
    Senator Martinez. Very good, I noticed in Mr. Griffin's 
testimony, he mentioned there won't be a need for tiles. And 
obviously there is a workforce there that is going to need to 
be looking at--obviously skilled, obviously talented, obviously 
needed--but they're going to be doing something different going 
forward than what they were doing in the past, and that's an 
interesting, sort of, realization.
    Ms. Rice. Absolutely.
    It is a challenging realization.
    Senator Martinez. Yes.
    Ms. Rice. Because obviously one of the things that we don't 
want to create is any type of a panic, where people feel like 
they need to be leaving right now, find that job now, thinking 
what's going to happen to me? That's really why it's very 
important that everyone here at this table works together, and 
we make sure that the workforce understands that we're there to 
help them prepare today for 2010, but that we're also very 
cognizant of certain--occupations, like tile workers, who 
really need to focus on what's going to be their next effort.
    And actually, there are quite a few efforts that we've been 
in conjunction with--EDC, as well as Enterprise Florida--the 
Workforce Florida Board, which I do have to thank them very 
quickly, they've put in some dollars, as well, and we also have 
one of the Workforce Florida Board members, Belinda Keiser, 
here with us today.
    But we've been working on different industries that can use 
those same kinds of skills.
    Did you want to say something there?
    Senator Martinez. No, we--go ahead, please.
    Ms. Weatherman. I was just going to say, the difficulty is 
knowing what tomorrow the skills are going to be, a challenge. 
But we could actually start identifying now, the CEV that we 
referenced was 2 years ago, it seems like a lifetime ago, just 
within the last 6 weeks, we have announced Embraer locating 
here in Brevard County.
    Aviation, not aerospace, but technically similar 
nonetheless. So, we're starting to develop that skill mix train 
as we go on and be more successful.
    Senator Martinez. It's really encouraging to me to see what 
you're doing locally, and how you're pulling all of this 
together. Because, we know, in Washington, we don't have all 
the answers. In fact, we have darn few answers, and it really 
does take a community coming together and working together with 
all of these various component parts to ensure that this 
workforce has a place to go, and a future, and a hope.
    And I think what you're saying is exactly right--we don't 
need the discouraging words to now, all of a sudden, panic 
folks and so forth. Remaining here, giving them a way where 
they can see a future for themselves and a future workforce, 
really is a terribly important part of the process.
    Well, I want to thank all of you for what you do. Randy, 
great to see you, and your continuing work is very, very 
exciting, what you do in that High Tech Corridor initiative is 
so important to our future. We wish you well, and if we can be 
of help, I'm sure that both Senator Nelson and myself would 
love to hear from you as to how we can be helpful.
    But, anyway, thanks to all of you.
    Mr. Berridge. Thank you, Senator.
    Senator Nelson. And I thank Dr. Griffin for remaining here 
so that he can hear this discussion on how we're going to try 
to take care of our people. So, thank you very much.
    Ms. Rice, what particular industries outside of space, and 
particularly, spaceflight, do you think that could readily 
utilize these kind of workers?
    Ms. Rice. Actually, there are a lot of them. First of all, 
I would definitely echo onto aviation. That is a very key 
industry. The aerospace technicians that we have, going through 
Brevard Community College and SpaceTEC, have a lot of similar 
skills that flow along with the aviation industry.
    In addition to that, alternative energy, especially with 
solar, since we have the Florida Solar Energy Center here, it's 
a Banner Center through WFI, Workforce Florida funding, there 
are many opportunities that will be coming out of that area.
    Across the Corridor, we see biomedical growing in leaps and 
bounds, and the skills that come into play there are, again, 
very technical in nature. They require, not only people who are 
interested in life sciences, but people who are also mechanical 
in nature.
    There's additionally, digital media that is taking on a 
whole new leap and bound, and I heard a wonderful presentation 
at the last Florida High Tech Corridor Workforce and Education 
Council meeting around digital media, and what it is going to 
entail. And it's going to have a lot of the same kinds of 
things, as far as technicians, engineers--we have the 
capability to walk these people into other jobs.
    The primary point that I think that we need to focus on, is 
how do we embed that training as early as possible? And when 
you're talking about it with Constellation activities, then 
you're talking about something I heard very encouraging here 
today, which is the fact that we need to be having more of that 
production, more of that design and development--yes, I'm going 
to push the envelope there and say that we're not just 
operations and launch--and bring those activities, or at least 
embed our workers into those activities, so that they're 
working faster and harder together. That's the primary piece 
that I think we need to focus on.
    Mr. Berridge. Senator Nelson, if I might--compliments to 
Lisa and her team for using a few Corridor dollars, and others 
that you've managed to scrounge from various places, to do a 
study--not just in the Corridor, but around the state, in terms 
of potential openings that might fit the skills set. Don't want 
to lose them from Brevard, for sure, we're going to lose some, 
potentially. Why not be prepared to see where we might find 
opportunities for them in Orange or Osceola, or Lake or 
Volusia, or other surrounding counties? Perhaps the family 
could remain intact, and the talent could be kept as close to 
possible where it is located now.
    Senator Nelson. Mr. Berridge, any other particular 
industries, companies that you think would be attracted here 
because of this pool of trained employees that will be 
temporarily laid off?
    Mr. Berridge. We've seen some recent reports showing the 
increase in IT employment in our region, perhaps bucking some 
national trends. So, there's an opportunity.
    The digital media mentioned by Lisa, modeling simulation 
and training, a number of us in this room are part of the 
Military Affairs Commission in the Metro Orlando area, designed 
to protect the some $5 billion investment that we have there, 
in terms of modeling simulation and training industry. That 
industry seems to be growing.
    So, there's some potential of, I would submit, of cross-
pollinization.
    And then you have the State of Florida investing close to a 
billion dollars in the likes of Scripps and Torrey Pines, and 
Burnham and SRI, and what we're trying to do to grow that bio-
life sciences industry. So I'm--I've got to believe from a 
background at AT&T over 30 years, there's got to be some 
potential synergy there, as well.
    But I would echo the comment--if our state and our region 
is willing to invest as much as we have in research, my gut is 
that today, perhaps, didn't give us the opportunity for a full 
vetting, there's got to be some research opportunities that we 
can partner on together.
    Senator Nelson. And with the announcement that Embraer is 
coming, and will be assembling the very light jet. Then 
depending on the Air Force tanker contract, that now looks like 
it's going to be re-competed, were that ultimately to be 
awarded as it was, originally, that would have been 500 
sustaining engineering jobs over several decades, the life of 
that contract. But, it looks like that will be completely re-
competed.
    So, there are these opportunities, if we stay on top of it.
    Ms. Rice, do you have a particular message here today to 
all of those workers that are concerned about getting laid off, 
on what they need to do to prepare for the transition?
    Ms. Rice. Yes, I do--thank you very much for allowing me to 
do that.
    The very, very first message is about lifelong learning. 
They have got to take advantage of coming out, meeting us, we 
have a Brevard Job Link Express coming out, thanks to our Space 
Act Agreement that we have with NASA, we're bringing that out 
onto NASA facilities, onto the Kennedy Space Center. There are 
multiple places, they can come in and can access our services--
they can learn about other occupations, they can learn about 
what kind of training, we'll have workforce assessments out 
there--they have to take advantage of that. If they don't walk 
in there, they need to walk into one of our one-stop locations. 
They've got to do something to increase their skills. Assess 
where you're at, take advantage of the training dollars that 
are available for you, and increase your skills.
    Senator Nelson. Thank you. And if all of those folks here 
who are reporting this meeting will help us get that word out, 
and if this meeting is still being televised by the NASA 
Channel, those who are within the sound of our voices, please 
take Ms. Rice's suggestions to heart. Go and apply for that 
additional training.
    Mr. Kohler, I wanted to ask you, General Kehler, and 
Brigadier General Helms, the Air Force has had a new attitude 
in working, it hadn't been all so rosy in the past, but it 
seems to be a new attitude of working, and trying to free up, 
particularly some of those abandoned pads. Do you have any 
additional suggestions for what we ought to be doing?
    Mr. Kohler. And that's correct, Senator, you're right, it's 
had a history--it's a very difficult process as you know. You 
have a military range, a Federal property in NASA KSC, and 
actually, two different missions, as you well know--the U.S. 
Air Force's mission for national security has requirements and 
priorities that sometimes don't necessarily complement well 
with the commercial access to space.
    And so, what we have found--and you're correct--both at the 
command level, here with General Helms, and right up through 
the chain of command, an awareness of the need to be able to in 
some way, integrate viable commercial space activity with an 
active military range. And somehow, there needs to be a way to 
be able to operate effectively and competitively on a global 
scale, in those environments. And I think that the work that's 
been done with respect to LC40 and SpaceX and their COTS award, 
has been a great pathfinder for our efforts to seek an 
assignment for LC36.
    And as a consequence, the 45th Space Wing has actually 
operationally arranged for--as customers come to the range, 
looking for pad assignments, they engage Space Florida 
immediately, in order to allow a combination of business case 
evaluation to be completed on our side, with range technical 
access evaluation on the military side.
    This needs to continue, and actually needs to be more 
formalized, and I think you're correct--my presumption is that 
General Kehler and the entire command structure is recognizing 
that, and taking active steps to arrange for that kind of 
support.
    Senator Nelson. You mentioned in your testimony a space-
based biotech corridor.
    Mr. Kohler. Yes.
    Senator Nelson. Talk to us about that?
    Mr. Kohler. Certainly. We had--and this is in concert, in 
cooperation with NASA, actually, the STS 123 and 124, exampled 
by our support of SpaceHab, and their effort to do some 
salmonella research on Station in the last mission. We 
supported that financially, and authorized an additional amount 
for that.
    And what I mean by that, conceptually, is that we have the 
International Space Station as a National Lab. We have what we 
feel are very unique, differentiating capabilities at the SLSL, 
Space Life Sciences Lab, in that you have technical skills that 
are able to integrate science into payload processing, which 
then the complicated matter of making that move from a 
laboratory to a launch vehicle in a timely fashion, so as not 
to compromise the science, and then be able to launch it.
    The concept, basically, is to be able to connect, in a real 
sense, the lab and that work at the ground level with what 
exists on Station, and could go so far as to even incorporate 
things that are relevant in free trade zone, foreign trade zone 
activity, in terms of being able to create that kind of 
economic opportunity for things that are done on-orbit.
    Senator Nelson. Mr. Berridge, the High Tech Corridor--you 
and University of Central Florida--are looking at these space-
related research and development opportunities.
    You want to comment on that?
    Mr. Berridge. I spoke briefly on that just a minute ago, 
Senator Nelson, in terms of if you have the state investing 
close to a billion in major entities, including, in this metro 
area, the Burnham Institute.
    And I believe, Lynda, you've got a meeting coming up with 
the Burnham folks in about a month?
    And then you have, thanks to Dr. M.J. Soileau, and Dr. Eric 
Van Stryland and others, UCF as being recognized as one of the 
leading laser photonics research facilities in the world.
    You have the investment that University of Florida, and 
University of South Florida and UCF have made in meeting the 
state's investment in terms of bio-life sciences. You have all 
of these synergies going on in terms of Brevard, and the 
Universities--UCF and UF, in particular--and I think the goal 
on the table today is, we ought to have an opportunity to 
explore other research capabilities.
    We didn't exist 12 years ago, as an organization. We've 
invested in 900 research projects through our 3 universities 
with companies up and down the Corridor in a host of 
technologies. I just think there are some opportunities that 
could be explored.
    And you and I served together on the Founding Board of the 
Astronauts Memorial Foundation, I'm proud of that fact. I just 
think there's some opportunity with some very intelligent 
people in this room, to look for ways that we could partner 
together--the state, the region, and do some additional 
research.
    Thank you.
    Senator Nelson. Senator Martinez, any further word?
    Senator Martinez. Well, just to conclude, let me thank the 
Administrator and the people of NASA, as well as the panelists 
here in the second panel.
    I want to tell you that in my view the Space Coast and the 
whole space program, as well as the people who work here could 
not have a more knowledgeable and passionate advocate than 
Senator Nelson. I think we all know how his life has been 
driven by the space program, and I think by bringing this 
hearing here today, he has taken one more step in fulfilling 
that tremendous commitment that he has to the people that have 
made space exploration a part of their lives.
    So, anyway, I want to thank you, Senator, for bringing the 
hearing here to Central Florida, right here to the heart of the 
space program, and for your continuing commitment to this 
effort.
    Senator Nelson. Thank you, Senator Martinez.
    We want to thank everybody, particularly Rosalind Harvey 
here at the Port Authority, who has set up all of this meeting 
today. We want to thank everybody for coming, and all those 
folks that braved the heat out there, and the thousand folks in 
the rally, and certainly we added a dimension to this hearing 
that we wanted to.
    Because what Senator Martinez and I wanted to do was to 
give people hope and that's what you all have done along with 
the testimony of Dr. Griffin, and Mr. Gerstenmaier, and Mr. 
Cooke.
    We also wanted to give them a glimpse into where we can go 
in the future so that we can continue to soar in the heavens. 
Part of our character as a people, is to be an adventurer, an 
explorer. That's part of our character as Americans.
    And so, thank you all for having made this possible today.
    The meeting of the Committee is adjourned.
    [Whereupon at 11:45 a.m., the hearing was adjourned.]


                            A P P E N D I X

       Prepared Statement of Alan Bergman, Republican Candidate, 
          U.S. House of Representatives, Florida 15th District

    Members of the Committee, Staff, and guests: I would like to 
express my gratitude to you for letting me address you today. These are 
important matters, and the input of those of us here in Florida is, and 
must be, a vital part of your decisionmaking process.
    I have been a resident of the Space Coast for seven exciting years. 
Just as all of you, I have seen the growth of our space program and the 
socioeconomic rewards it has brought to our world. As a direct spin-off 
of the space program we are healthier, able to live longer, more exact 
in storm prediction, and safer, to list but a few of the advances we 
have garnered from the Space Program. The many thousands of patents 
developed out of the Space Program attest to these facts.
    As a candidate for the U.S. Congress, 15th District, I have a deep 
concern for the welfare of my country as well as my district. I have 
met with Steve Kohler of Space Florida, Linda Weatherman of the 
Economic Development Corporation, and Brevard County Commissioners, 
among others, to seek insight on these matters.
    Drawing from my experiences as a community leader and in the 
financial marketplace, as well as the education that I have received at 
the feet of the various experts I have heard on the subject, I have 
reached the following conclusions:

        1. The government should not bear the entire responsibility for 
        the launch facilities at NASA. I know we have been trying to 
        bring in private entrepreneurs to Florida, as exemplified by 
        Space Exploration Technologies Corporation (SpaceX).

        2. I have spoken to Fortune 500 companies about using our 
        launch facilities and designing and developing programs for the 
        manufacture of compounds that can only be created in the unique 
        environment of space. They are interested! I would be happy to 
        share more information with you regarding the companies and the 
        products, but I am bound by the confidentiality of these 
        discussions.

        3. I would suggest a division of Space Florida be established 
        for the purpose of procuring commercial contracts with the 
        private sector, to continue the work I undertook in this area. 
        Several corporations are interested, and when their competitors 
        learn of their interest, the competitors will be interested as 
        well. This is one of the advantages of our capitalist system, 
        and should be respected as such.

        4. I have been reviewing the International Traffic in Arms 
        Regulations (``ITAR''). These regulations must be revised if we 
        are to allow foreign corporations and/or governments 
        streamlined access to these services without threatening our 
        national security. Efforts must be made to convince the various 
        Executive Branch officials with the power to revise these 
        regulations to agree to the need for ITAR revision in order for 
        Florida to remain competitive as a launch site for private 
        sector space ventures. These ventures would include both 
        commercial manufacturing and space tourism. The possibility of 
        subcontracted work from the governments of foreign states also 
        exists.

        5. The allocation of budgetary responsibility must also be 
        revisited. Full cost accounting seems unfair to private 
        enterprises, since NASA would be maintaining these facilities 
        whether they would be used by private entities or not. Marginal 
        cost accounting for costs above NASA's ordinary expenses 
        without private sector access and launches seems a much more 
        appropriate allocation of cost, and would make our Florida 
        launch site much more attractive to the private sector. At the 
        same time, all additional costs, including without limitation 
        heightened security and additional maintenance, would be passed 
        through to the private sector.

        6. The Committee would do well to note that Florida's Space 
        Coast has an existing trained and ready spaceflight workforce 
        that is about to become seriously underemployed. At the same 
        time, we possess a physical infrastructure that is ideal for 
        this type of program. Further, our geographic latitude allows 
        for a higher total lift payload than do more northern 
        latitudes. Our position on the Atlantic Ocean further increases 
        our payload ability. Our weather allows the opportunity of many 
        launch days per year. Any one of these features alone makes us 
        a highly desirable launchsite. All these features together make 
        us uniquely qualified for this type of private-public 
        cooperation.

        7. An added benefit of bringing these private ventures to 
        Florida's Space Coast is the reinforcement of this area's 
        economy. Rather than uproot the uniquely trained workforce that 
        NASA has developed in this area, with the consequent disruption 
        of family life, children's educational experiences, and 
        lifelong friendships built in longstanding neighborhoods by 
        moving these ventures to another, less astrophysically 
        desirable, part of the country, I contend that it is in the 
        best interests of the Nation, industry, and our citizens to 
        keep Florida as the physical hub of America's space program.

    I thank you for your time, and for the opportunity you have given 
me to share my views. God Bless America!
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Mary L. Landrieu to 
                        Hon. Michael D. Griffin

    Question 1. Can you generally describe the impact that the Ares V 
Program will have on the employment numbers at both the Kennedy Space 
Center (KSC) and Michoud Assembly Facility (MAF)?
    Answer. NASA plans to conduct Ares V final manufacturing and 
assembly of the both the Ares V core and earth departure stages at 
NASA's Michoud Assembly Facility (MAF) in Louisiana. This is due to the 
unique capabilities at MAF such as the physical capacity of the 
facility, experienced local workforce in large, human-rated cryogenic 
stages and access to the inter-coastal waterway and NASA's Stennis 
Space Center for testing. After delivery of the core and Earth 
departure stages to the Kennedy Space Center (KSC), stacking and final 
integration of the Ares V vehicle will be performed in KSC's Vehicle 
Assembly Building. Transport to launch pad 39A and conduct of launch 
operations will utilize unique KSC facilities and local workforce 
experienced in integration and launch of NASA's human rated space 
vehicles. Specifics of workforce numbers for either KSC or MAF will not 
be known until contracts have been awarded. Initial contracts for 
ground processing operations are currently planned for award for FY 
2010; however, the scope of Ares V content for that contract has not 
been explicitly determined. Final prime contracts for development and 
production of Ares V are currently planned for award in FY 2012. Ares V 
will be the largest, most capable launch vehicle ever built.

    Question 2. It is my understanding that in the FY09 Commerce. 
Justice, Science Appropriations, the Senate has added $30 million to 
the Ares V budget for Early Risk Reduction Efforts. If this funding is 
retained in the bill, what impact would that have on the long term 
schedule for Ares V?
    Answer. The additional $30M reflected in the FY 2009 Commerce, 
Justice, Science and Related Agencies Appropriations bill. as reported 
by the Senate Committee on Appropriations on June 19, 2008, would not 
change the currently planned flight milestones for Ares V. However, 
this additional funding would reduce risk and add confidence in meeting 
schedule and will aid the transition to development for Ares V in FY 
2011.

    Question 2a. If this funding is retained in the bill, how would 
that impact the workforce at both MAF and KSC?
    Answer. Workforce impact at NASA locations would depend on the 
specific tasks and contracts that are yet to be awarded.

    Question 3. What type of schedule impact would you expect on the 
Ares V program from a 6-month Continuing Resolution from Congress?
    Answer. There will be no schedule impact to the Ares V Project 
resulting from a six-month Continuing Resolution.

    Question 3a. What type of schedule impact would you expect on the 
Ares V program from a one-year Continuing Resolution from Congress?
    Answer. Given the relatively small amount of funds in the FY 2009 
request for Ares V work ($7.0M), there would be no impact to the Arcs V 
schedule.

    Question 4. As a result of the retirement of the Space Shuttle, 
NASA and its contractors could soon begin issuing Worker Adjustment and 
Retraining Notification (WARN) Act letters impacting thousands of 
workers at these facilities. With the current live year gap until the 
Orion/Ares system is operational, NASA and its contractors would then 
turn around in about 2 years and start hiring workers for the 
Constellation Program. This approach would essentially involve laying 
off skilled workers one year, then staffing up 2 years later for the 
same type of skilled workers--workers who, at that time, may or may not 
be readily available.
    Instead of the traditional WARN and rapid response protocol, it 
would seem to benefit NASA: the States of Florida and Louisiana; 
regional employers; contractors; and employees if funds were invested 
to keep workers employed during the gap to ensure skilled workers 
remain available.
    Would NASA support a request to allow both states a waiver from the 
Department of Labor to utilize Workforce Investment Act funds to help 
find contract employment for impacted workers? If not, please explain 
why.
    Answer. Retention of civil servant and contractor critical skills 
necessary to safely fly out the Space Shuttle Program manifest and 
enable the success of the Constellation Program is a top NASA priority. 
As the Agency transitions from Shuttle to Constellation, NASA plans to 
maintain approximately the current civil service workforce levels.
    NASA expects the nature of near-term human spaceflight work to 
shift from operations to engineering design. development, and test soon 
after the Space Shuttle's last mission, and that the new Constellation 
vehicles will require less manpower to process and prepare for each 
mission than Shuttle. Reducing manpower levels on the new vehicles is 
critical to the success of the Nation's exploration efforts. Given that 
the Constellation program is a ``pay as you go'' construct with 
milestones based upon time-phased activity within the available budget 
provided by Congress, Constellation program requirements drive required 
workforce levels. From 2009 to 2011, NASA will hold competitions and 
award future Constellation contracts for ground operations and 
processing of Orion and Ares I, as well as the design and manufacturing 
of Ares V and Altair.
    NASA purchases products and services, not direct labor hours, from 
contractors, so NASA does not directly manage the contractor workforce. 
Accordingly, NASA does not issue WARN notifications to the contractor 
workforce, but rather the prime contractors who employ the contractor 
workforce take that action, only if needed and according to their own 
policies. NASA continually seeks innovative solutions to the workforce 
challenges associated with the transition from Shuttle to 
Constellation. We understand that the Workforce Investment Act (WIA), 
under certain circumstances, authorizes the Department of Labor to 
allocate funds to state and local workforce investment boards for 
youth, adult and dislocated worker training services. There are also a 
number of restrictions on use of such funds, to include eligibility 
requirements, time limits, funding limits, employer match requirements, 
etc., which the Department of Labor has the authority to waive. It is 
difficult to judge the merits of any proposed waivers under WIA without 
knowing the specifics of what is to be waived and for what purposes. 
although it appears to be a matter between the Department of Labor and 
state and local workforce investment boards. However, should the 
Department of Labor seek NASA's view on a waiver request under the WIA; 
NASA would be pleased to review such a request.
    Accordingly, while NASA does not seek, or advocate, additional 
retraining, placement or short-term work efforts by contractors funded 
within the NASA budget, in general, NASA supports efforts to help the 
Shuttle contractor workforce negotiate the transition between the 
Shuttle and Constellation Programs, whether that is to prepare for 
Constellation or other NASA programs, migrate to other aerospace work, 
or even pursue other fields. As part of this effort, NASA has broadly 
communicated a summary of the Agency's future contract acquisition 
plans--to the limit allowed by the Federal Acquisition Regulations--so 
that potential bidders and their employees can see what future work 
will be competed for Constellation.

    Question 5. NASA receives Federal funding for its Institutional 
Assets. Unlike other NASA locations, the Michoud Assembly Facility 
(MAF) has not traditionally been considered an Institutional Asset, and 
thus, has not received those funds. Facility costs at MAF have instead 
been borne by program tenants. These costs are high because of the 
small number of tenants (the lower the number of programs/ contractors, 
the higher their percentage of cost). As a member of the Senate 
Appropriations Committee, I would be interested to know additional 
information on facility costs at MAF. Has NASA conducted any studies to 
review the cost of doing business at MAF compared to market value? If 
so, please provide any completed studies. If not, will NASA agree to 
conduct such a study?
    Answer. Currently, the Michoud Assembly Facility (MAF) is operated 
for NASA by Lockheed Martin as a part of the Shuttle External Tank (ET) 
production contract. NASA decisions to use MAF to support Constellation 
projects, in addition to the ET, drove an acquisition strategy which 
separates the facility operations, maintenance, and manufacturing 
support into a separate contract. The diversification of the MAF to 
support multiple projects, using multiple prime contractors, led to a 
NASA Request for Proposal (RFP) in June 2008 for a multi-program, 
mission independent contract for MAF operations. NASA currently 
anticipates making a selection for this contract in December 2008. The 
use of MAF for Constellation activities and this particular multi-
project acquisition approach are intended to improve the transition 
from Shuttle ET production to Constellation activities (skill 
retention, capability preservation), while minimizing costs. Once in 
place. this contract is designed to allow increased penetration of 
facility operating costs and incentivize efficiencies in facility 
operation, maintenance and manufacturing support. The efficiencies 
anticipated will be informed by NASA's plans to conduct a study, after 
the new contractor is in place, to compare NASA MAF facility costs to 
market rates.

    Question 6. As you know, there will be a new operations contractor 
at Michoud. It is my understanding that there is currently a 
maintenance backlog for the facility. The maintenance backlog is due to 
many factors including Hurricane Katrina, the upcoming retirement of 
the Space Shuttle and local economic conditions. What is the current 
status of maintenance projects at Michoud? Does NASA need additional 
funding to address the maintenance backlog at Michoud? (Yes/no) If yes, 
how much funding would be needed? If no, why not?
    Answer. No, NASA does not need additional funding to address the 
maintenance backlog. The current status of deferred maintenance at MAF 
is consistent with all NASA installations. In addition, Congressional 
approval of the Katrina supplemental funding was significant in re-
storing the facility to a good condition after the damage caused by 
Hurricane Katrina in 2005. The supplemental funds provided to MAF for 
Katrina recovery and repair at MAF totaled $181.0M. This supplemental 
funding allowed repairs to the facility to be made ($69.0M). as well as 
implementation of important asset protection measures ($70.0M) which 
hardens and safes the facility.
    NASA's approach to facility management is to achieve an appropriate 
balance among facility maintenance, capital revitalization, 
construction of facilities and the retirement and elimination of 
facilities that have no future requirement or have become antiquated.

    Question 7. Administrator Griffin, in your previous statements and 
in the initial NASA request for proposals (RFP), there was a commitment 
that Ares I was to be produced at MAF. The language was softened in the 
final RFP, allowing alternatives to be proposed. No language about 
design was included in the RFP language. However, it is my 
understanding, that at this time the first two Ares I development units 
are being built at the Marshall Space Flight Center, not MAF. These 
units require large investments for infrastructure and each unit will 
cost millions to produce. Once this investment has been made, there 
would seem to be a disincentive to move production to MAF.
    For Ares V, you have also verbally committed that Ares V would be 
developed and produced at MAF. Like Ares I, however, it is being 
planned for the first two Ares V development units to also be designed 
at the Marshall Space Flight Center, not MAF. This will mean additional 
investments in infrastructure and production. Again, there seems to be 
little incentive for NASA to duplicate the capacity at MAF once it 
exists at Marshall.
    Just as NASA showed a strong commitment to MAF in the aftermath of 
Hurricanes Katrina and Rita, it is essential to keep this strong 
commitment from NASA that work on Orion, Ares I and Ares V will stay at 
MAF.
    Is NASA still committed to develop and build Orion, Ares I and Ares 
V at MAF? Would NASA support codifying this commitment in future 
legislation?
    Answer. NASA has been consistent in its commitment to complete 
final manufacturing and assembly of the Ares I Upper Stage and 
Instrument Unit, and Ares V core and Earth departure stages, at MAF. 
This is due in part to the unique capabilities MAF offers, such as an 
experienced and abundant local workforce with considerable expertise in 
human-rated cryogenic stages, the physical capacity of the facility, 
and access to the nearby Intercoastal Waterway and the NASA Stennis 
Space Center for testing.
    With regard to future legislation, NASA would defer to the next 
Administration for guidance with respect to legislative proposals for 
NASA.

    Question 7a. Please explain why the first two Ares I and Ares V 
development units could not be designed and produced at MAF instead of 
Marshall.
    Answer. For Ares I, NASA is currently planning to manufacture and 
assemble only one full-scale, integrated Upper Stage test article at 
the Marshall Space Flight Center (MSFC)--the Main Propulsion Test 
Article and other partial articles for developmental structural 
testing. The ground vibration test article and all subsequent 
production articles will be manufactured at MAF. NASA has made no 
decisions as to the location of final manufacturing and assembly of the 
Ares V developmental units--this is forward work to the Ares V 
Preliminary Design Review (PDR). NASA is following the very successful 
Saturn model, where critical manufacturing processes are worked out 
prior to completion of design in physical proximity to vehicle 
designers and unique test facilities. This is also in keeping with best 
practices of industry. In addition, there are schedule conflicts within 
the MAF facility due to on-going Shuttle External Tank production which 
hamper earlier Ares manufacturing. It is also important to note that 
MSFC facilities arc not capable of ongoing, full-scale production--they 
are sized to support non-recurring development activities.
    The MAF production flow has been optimized for low-cost 
manufacturing based on lessons learned from the development work at 
MSFC. The optimized approach will be implemented at MAF and not 
retrofitted at MSFC. The Upper Stage manufacturing assets at MSFC are 
used for process development and production of early development test 
articles. These assets cannot support flight production due to the 
developmental nature of their design. The MSFC manufacturing capability 
will be used for problem resolution after the Upper Stage production 
system is established at MAF and will later transition to Ares V 
development activities. This plan is still undergoing finalization and 
will be completed this fall as NASA concludes the Ares I PDR.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
